<html>
<title> - OVERSIGHT HEARING ON COLUMBIA/SNAKE RIVER DRAWDOWN PROPOSALS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
      OVERSIGHT HEARING ON COLUMBIA/SNAKE RIVER DRAWDOWN PROPOSALS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                      MAY 31, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-32

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 44-131                      WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho

                  Robert Faber, Staff Director/Counsel
                    Valerie West, Professional Staff
                     Steve Lanich, Democratic Staff


[GRAPHIC] [TIFF OMITTED] T4131.111

[GRAPHIC] [TIFF OMITTED] T4131.112



      OVERSIGHT HEARING ON COLUMBIA/SNAKE RIVER DRAWDOWN PROPOSALS

                              ----------                              


                         SATURDAY, MAY 31, 1997

        U.S. House of Representatives, Subcommittee on 
            Water and Power, Committee on Resources, 
            Lewiston, ID.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., at 
the Grand Plaza Hotel, Lewiston, Idaho, Hon. John T. Doolittle, 
Chairman, presiding.
    Members present: Representatives Doolittle, Chenoweth, and 
Crapo.
    Staff present: Valerie West, Legislative Staff; Lara 
Chamberlain, Clerk; and Liz Birnbaum, Democratic Staff.
    Mr. Doolittle. The Subcommittee on Water and Power will 
please come to order.
    The Subcommittee is meeting today to hear testimony 
concerning the Columbia/Snake River drawdown proposals.
    At the request of Congressman Chenoweth and Congressman 
Crapo--two of my favorite colleagues, I might add--the 
Subcommittee has traveled to Lewiston for today's oversight 
hearing. I look forward to hearing from the witnesses 
concerning proposals to drawdown the four lower Snake River 
dams and the John Day Dam.

   STATEMENT OF HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. These proposals would have significant 
impacts on the Pacific Northwest and severe economic 
consequences for this area.
    I appreciate the efforts of Congressman Chenoweth and 
Congressman Crapo to assure that the many complex issues 
surrounding these proposals will be aired here today.
    We are spending hundreds of millions of dollars annually on 
salmon recovery efforts, both in the Pacific Northwest and in 
California. Because of the substantial impacts of these 
proposals, the policies being considered must be thoroughly 
evaluated for their benefits to the fishery as well as their 
cost to society.
    The Army Corps of Engineers is currently conducting a 
feasibility study of permanent natural river level drawdown at 
the four lower Snake River dams: Lower Granite, Little Goose, 
Lower Monumental and Ice Harbor.
    The Corps has made a determination that ``based on 
estimated biological benefits, costs and other environmental 
effects and re-

gional acceptance, the permanent natural river option is the 
only drawdown alternative recommended for further study.''
    This analysis is supposed to be completed in 1999 as called 
for in the National Marine Fisheries Service March 1995 
biological opinion on hydropower operations. It will be the 
basis for decisions on whether the drawdowns should be 
implemented.
    The ramifications of implementing the permanent natural 
river alternative for the lower Snake dams are enormous. The 
permanent drawdown would radically alter or eliminate the 
current multi-purpose uses of the lower Snake River. Irrigation 
facilities on the four projects would be unusable without 
significant modifications. Commercial navigation on the lower 
Snake River from its confluence with the Columbia River to 
Lewiston would be eliminated. Power production at all four dams 
would also be eliminated.
    In addition, the Corps estimates that the construction cost 
to bypass these four dams would be $533 million.
    In addition to this proposal, there are proposals to draw 
down John Day Dam on the main stem of the Columbia to spillway 
crest or natural river levels.
    While the Corps of Engineers has not prepared any 
preliminary estimate of the social and economic impacts, either 
proposal would definitely affect irrigation, power production, 
navigation and flood control.
    The Corps has taken the position that they cannot implement 
these proposals without new statutory authority, since the 
proposed actions would eliminate or significantly affect 
specific project purposes provided for in the authorizing 
legislation.
    As Chairman of the House subcommittee with jurisdiction 
over the Federal power marketing administrations and the Bureau 
of Reclamation, I can tell you that I will be following these 
studies over the next 2 years and will fully evaluate any 
recommendation made. I will also be examining the scientific 
data on which these decisions will be based.
    I do, however, look forward to hearing from today's 
witnesses as we begin our ongoing oversight of these proposals. 
I would like at this point to recognize the two representatives 
for the state of Idaho, Mrs. Chenoweth and Mr. Crapo, for any 
opening statement they may wish to make.
    Mrs. Chenoweth.
    [The prepared statement of Hon. John T. Doolittle follows:]

Statement of Hon. John T. Doolittle, a Representative in Congress from 
                        the State of California

    At the request of Congresswoman Chenoweth and Congressman 
Crapo, the Subcommittee on Water and Power has traveled to 
Lewiston for today's oversight hearing. I look forward to 
hearing from the witnesses concerning proposals to drawdown the 
four lower Snake River dams and John Day Dam. These proposals 
would have significant impacts on the Pacific Northwest, and 
severe economic consequences for this area. I appreciate the 
efforts of Congresswoman Chenoweth and Congressman Crapo to 
ensure that the complex issues surrounding these proposals will 
be aired here today.
    We are spending hundreds of millions of dollars annually on 
salmon recovery efforts, both in California and the Pacific 
Northwest. Because of the substantial impacts of these 
proposals, the policies being considered must be thoroughly 
evaluated for their benefits to the fishery as well as their 
costs to society.
    The Army Corps of Engineers is currently conducting a 
feasibility study of permanent natural river level drawdown at 
the four Lower Snake River dams--Lower Granite, Little Goose, 
Lower Monumental and Ice Harbor. The Corps has made a 
determination that ``based on estimated biological benefits, 
costs, other environmental effects, and regional acceptance; 
the permanent natural river option is the only drawdown 
alternative recommended for further study.'' This analysis is 
supposed to be completed in 1999, as called for in the National 
Marine Fisheries Service March 1995 biological opinion on 
hydropower operations. It will be the basis for decisions on 
whether the drawdowns should be implemented.
    The ramifications of implementing the permanent natural 
river alternative for the lower Snake dams are enormous. The 
permanent drawdown would radically alter or eliminate the 
current multi-purpose uses of the lower Snake River. Irrigation 
facilities on the four projects would be unusable without 
significant modifications. Commercial navigation on the lower 
Snake River from its confluence with the Columbia River to 
Lewiston would be eliminated. Power production at all four dams 
would also be eliminated. In addition, the Corps estimates that 
the construction costs to bypass these four dams would be $533 
million.
    In addition to this proposal, there are proposals to 
drawdown John Day Dam on the mainstem of the Columbia to 
spillway crest or natural river levels. While the Corps of 
Engineers has not prepared any preliminary estimates of the 
social and economic impacts, either proposal would definitely 
affect irrigation, power production, navigation and flood 
control.
    The Corps has taken the position that they cannot implement 
these proposals without new statutory authority, since the 
proposed actions would eliminate or significantly affect 
specific project purposes provided for in the authorizing 
legislation.
    As Chairman of the House Subcommittee with jurisdiction 
over the federal power marketing administrations and the Bureau 
of Reclamation, I can tell you that I will be following these 
studies over the next two years, and will fully evaluate any 
recommendations made. I will also be examining the scientific 
data on which these decisions will be based.
    I do, however, look forward to hearing from today's 
witnesses as we begin our ongoing oversight of these proposals.

  STATEMENT OF THE HON. HELEN CHENOWETH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Thank you, Mr. Chairman. And thank you so 
much for bringing the Subcommittee on Water and Power to 
Lewiston, Idaho.
    On behalf of my constituents, I just want to issue to you a 
hearty Idaho welcome. My constituents and I are very grateful 
for this opportunity to be heard and to tell the committee our 
story.
    I also want to welcome my friend and fellow member of the 
Subcommittee, Mike Crapo, to the 1st Congressional District. As 
a new member of the Subcommittee, he has already distinguished 
himself as a valuable member of the Resources Committee, and I 
am so very pleased he was able to make this journey from Idaho 
Falls.
    Mr. Crapo also serves on the House Commerce Committee, and 
I think that the fact that he is here with me today would 
indicate how we work through our problems in Idaho together. It 
is a joy, a very sincere joy, to be able to serve with a man 
like Mike Crapo.
    I also want to extend a warm and hearty welcome to all of 
our witnesses, each of whom have sacrificed a beautiful and 
very exciting Saturday afternoon to be with us today. As I was 
in my room just before coming down, I was viewing what could 
possibly have been a tornado that was moving across on the 
prairie, and being a girl from Kansas originally, I remember 
those signs.
    Mr. Chairman, you heard me say over and over again in 
Washington, that in Idaho water is like gold. And I cannot 
stress this enough. The Snake and Clearwater Rivers are truly 
the lifeblood of our state. The various Federal, state and 
private water reclamation projects throughout Idaho have turned 
much of what was once arrid lands in the south to now green, 
productive farms and ranches which in turn have spawned our 
great cities in the south.
    These projects have benefited wildlife, recreation and 
Idaho's quality of life.
    And to the north, the management of the Port of Lewiston is 
of vital concern to the entire northern area, as well as points 
east.
    To that extent, we find ourselves today in an unfortunate 
decision. The various reclamation projects that this region is 
so dependent upon, cause harm to another of our valuable 
resources, our fish, our salmon and our steelhead. Some will 
present this as a Hobson's choice. Mr. Chairman, I on the other 
hand believe we can protect both our quality of life and our 
fish.
    The reason I asked you, Mr. Chairman, to hold this hearing 
was to help both us and the public better understand the 
situation that we are in. The four lower Snake dams are 
operated now under the National Marine Fisheries Service 1995 
Biological Opinion, which calls for flow augmentation, spill 
and barging.
    And that was out without an act of Congress. That simply 
was a biological opinion.
    And as we will hear today, the National Marine Fisheries 
Service is expected to issue a new biological opinion in 1999 
on the salmon, and to decide later this summer whether to list 
the steelhead.
    These decisions may very well call for the removal of the 
four lower Snake River dams as well as the John Day. This will 
severely damage the region's economy and the people of my 
district. And our people here must be made aware of this coming 
threat, Mr. Chairman.
    In fact, as we are here today, the U.S. Army Corps of 
Engineers has done a study to draw down to the natural river 
the lower Snake dams. In the Corps' Interim Status Report the 
Army states, and I quote, ``Based on estimated biological 
benefits, costs, other environmental effects and regional 
acceptance, the permanent natural river option is the only 
drawdown alternative recommended for further study.''
    This means, Mr. Chairman, that natural river breaching dams 
is the only option to be studied.
    In my mind this issue is not an either/or situation, and I 
am deeply disturbed that the Federal entities appear to be 
making such. Mr. Chairman, these decisions and actions have 
huge implications to the region, both in ecological and 
economical terms. We must understand the ramifications of our 
decisions and actions. Often, it appears to me, people are not 
understanding that the removal of the dams is a very real 
possibility.
    As we look here today, a May 1997 University of Idaho study 
ties 4,830 high paying jobs to the three local ports, Lewiston, 
Clarkston and Whitman County. Now, that may not sound like a 
lot of jobs to an Easterner, but here in Lewiston, the loss of 
these jobs would be devastating to the district and to my 
state.
    Not only must we have all people making decisions, but if 
Idaho chooses to commit the resources, including our water, to 
recovery programs, we must ensure these programs are not purely 
hypothetical experiments, and that our efforts would yield 
tangible results.
    Decisions must be made on fact-based, integrated science, 
not emotionally driven rhetoric.
    Mr. Chairman, when the Columbia, Snake and Clearwater 
reclamation projects were undertaken, there was a clear goal to 
improve the region's economy and at one point, help with the 
war effort.
    We must now decide if our priorities have changed. What are 
our goals? What best serves the Pacific Northwest?
    My goals, Mr. Chairman, are to preserve the fish and the 
economy. In my mind, these are not mutually exclusive.
    Any policy change to the Northwest Power Act and the 
missions of the Corps of Engineers and the Bonneville Power 
Administration must be made by lawmakers, the elected officials 
responsible to the citizens, and not by bureaucrats, agencies 
or executive orders.
    We cannot, must not pit Northern Idaho against Southern 
Idaho, the East against the West, and certainly not the fish 
versus the people. We are all in this together and must work 
together to protect all of our interests.
    Mr. Chairman, with that, I again want to thank you very 
much for coming to Idaho. It is a great honor to have you here.
    Thank you.
    [The prepared statement of Hon. Helen Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Mr. Chairman, thank you so much for bringing your 
subcommittee on water and power to Lewiston, Idaho. On behalf 
of my constituents, welcome. My constituents and I are grateful 
for this opportunity to be heard and to tell the committee our 
story.
    I also want to welcome my friend and fellow member of the 
subcommittee, Mike Crapo, to the first congressional district. 
As a new member to the subcommittee, he has already 
distinguished himself as a valuable member of the Resources 
Committee, and I am so very pleased he was able to make the 
journey from Idaho Falls.
    I also want to extend a warm welcome to all of the 
witnesses--each of whom have sacrificed this beautiful Saturday 
afternoon to be with us here today.
    Mr. Chairman, you've heard me say it over and over again in 
Washington, ``water is like gold in Idaho.'' I cannot stress 
this enough. The Snake and Clearwater rivers are truly the 
lifeblood of our state. The various federal, state and private 
water reclamation projects throughout Idaho have turned much of 
what was once arid lands to now green, productive farms and 
ranches, which in turn have spawned our great cities. These 
projects have benefited wildlife, recreation and Idaho's 
quality of life.
    That being said, we find ourselves today in an unfortunate 
and difficult situation. The various reclamation projects that 
this region is so dependent upon, cause harm to another of our 
valuable resources, our fish--salmon and steelhead. Some would 
present this as a ``Hobson's Choice.'' I, on the other hand, 
believe we can protect both our quality of life, and our fish.
    The reason I asked you, Mr. Chairman, to hold this hearing, 
was to help both us and the public better understand the 
situation we are in. The four lower Snake dams are operated 
under the 1995 Biological Opinion, which calls for flow 
augmentation, spill and barging. And as we will heard, the 
National Marine and Fisheries Service (NMFS) is expected to 
issue a new biological opinion in 1999 on the salmon, and to 
decide later this summer whether to list the steelhead. These 
decisions may very well call for the removal of the four lower 
Snake river dams, as well as the John Day. This will severely 
damage the region's economy, and the people of my district must 
be made aware of this.
    In fact, as we are here today, the U.S. Army Corps of 
Engineers is studying and planning to drawdown to natural river 
the lower Snake dams. In the Corps' Interim Status Report, the 
Army Corps states, (and I quote) ``Based on estimated 
biological benefits, costs, other environmental effects, and 
regional acceptance; the permanent natural river option is the 
only drawdown alternative recommended for further study.'' This 
means, Mr. Chairman, that natural river (breaching dams) is the 
only option being studied--and that scares the life out of me! 
In my mind, this issue is not an ``either-or'' situation. And I 
am deeply disturbed that the federal entities appear to be 
making it such.
    Mr. Chairman, these decisions and actions have huge 
implications to the region, both in ecological and economical 
terms. We must understand the ramifications of our decisions 
and actions. Often, it appears to me, people are not 
understanding that the removal of the dams is a very real 
possibility. We must go into this with our eyes wide-open.
    As we will hear today, a May, 1997 University of Idaho 
study ties 4,830 high-paying jobs to the three local ports--
Lewiston, Clarkston and Whitman County. Now that may not sound 
like a lot of jobs to an Easterner, but here in Lewiston, the 
loss of these jobs would be devastating to this region and to 
my state of Idaho.
    Not only must we have all data before making decisions, but 
if Idaho chooses to commit its resources, including our water, 
to recovery programs, we must ensure that those programs are 
not mere hypothetical experiments, and that our efforts will 
yield tangible results. Decisions must be made on fact-based, 
integrated science--NOT emotionally driven rhetoric. And most 
of all, Mr. Chairman, Idaho must be a full and willing partner, 
and must voluntarily deem this use of its water as a beneficial 
use. Any commitment of Idaho resources must be done in full 
compliance with Idaho state law and procedure.
    Mr. Chairman, when the Columbia, Snake and Clearwater 
reclamation projects were undertaken, there was a clear goal--
to improve the region's economy and, at one point, help with 
the war effort. We must now decide if our priorities have 
changed. What are our goals? What best serves the Pacific 
Northwest? My goals, Mr. Chairman, are to preserve the fish and 
the economy. In my mind, these are not mutually exclusive.
    Any policy change to the Northwest Power Act and the 
missions of the Corps of Engineers and the Bonneville Power 
Administration must be made by lawmakers--the elected 
officials--and not by bureaucrats, agencies or Executive Order. 
We cannot and must not pit North Idaho against Southern Idaho, 
the East against the West, and certainly not the fish against 
the people. We are all in this together, and we must work 
together to protect all interests.
    With that, Mr. Chairman, let's hear from our witnesses.

    Mr. Doolittle. Thank you very much. Mr. Crapo is recognized 
for his statement.

   STATEMENT OF THE HON. MICHAEL CRAPO, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Crapo. Thank you, Mr. Chairman.
    And let me also add my voice to that of Representative 
Chenoweth, in thanking you for coming to Idaho. I know how busy 
your schedule is and I know how many demands you have for the 
Committee's time for the hearing of the critical issues in the 
jurisdiction of this subcommittee. And I appreciate your 
attention to this critical issue.
    I also want to commend Representative Chenoweth for having 
the perseverance and the ability to get you here. I know that 
your demands are many, and that it is important that we have 
advocates like Representative Chenoweth who work so hard and 
effectively at Congress to make sure that attention is paid to 
these critical interests in our area.
    I think the hearing is very timely. We are at a point in 
Idaho and in the Pacific Northwest right now where we face not 
only the critical issues of how to address the question of 
drawdowns or other river management issues, but we are also 
looking at the nationwide, the issue of electric energy 
restructuring of the entire electric energy industry.
    And in the Pacific Northwest, that significantly involves 
hydropower decisions, which involves decisions relating to how 
we manage our rivers.
    And I don't think it's any surprise to anybody, but often 
we have to step back and think about the fact that people in 
the Pacific Northwest, in fact people in the world, generally 
live near water, because water is such a critical part of our 
lives. We live near it for drinking water. In the Pacific 
Northwest we utilize our rivers for flood control; our 
facilities for flood control, for irrigation, for power 
generation, for fish and wildlife, and the tremendous 
environmental treasures which we have been blessed with here. I 
don't know if I mentioned recreation. I mean, the list goes on 
and on.
    Transportation is a very critical issue that we will be 
addressing here today I'm sure.
    And the list goes on and on with regard to the purposes for 
which the river system serves the people in the Pacific 
Northwest. And whether it is under the Endangered Species Act 
with regard to salmon recovery and steelhead, or whether, if it 
is with regard to the issues that are being raised with regard 
to restructuring of the electric energy industry, decisions 
that will be made hopefully soon with regard to salmon recovery 
and hopefully well with regard to salmon recovery and the 
energy and power issues, will dramatically impact Idahoans in 
every way.
    And because of that, I believe it's critically important 
that we address these issues properly here in the Pacific 
Northwest.
    I just want to get a plug in right now, Mr. Chairman, as we 
go into some of these battles, I'm going to be one that you 
will see fighting very aggressively for regional control over 
decisions relating to management of our rivers here in the 
Pacific Northwest.
    All too often I think we have seen that the decisionmaking 
structure that we have not only takes away from the people who 
live here near the issues, the ability to control their 
destiny, but forces us into a decisionmaking process that too 
often gives us low results for the economy and low results for 
the environment.
    And I agree with Representative Chenoweth, we don't need to 
be satisfied with that type of results. We can have results 
that are better for the economy and better for the environment, 
if we move to a decisionmaking process that lets the people of 
the region come together and have the ability to make decisions 
about their future.
    Our people will protect the fish. Our people will protect 
the economy. And they will do it with common sense solutions. 
And we need to move in that direction.
    I just wanted to indicate that I do have some pretty strong 
concerns about the process that is being followed, and 
hopefully as we address not only the questions of the 
technology and the science and the impacts that will result 
from some of the proposed solutions that we face, we also need 
to address the entire question of how the process is addressed.
    I believe that as we approach the energy restructuring 
issue, we cannot separate it from the issue of river 
governance, and we must put into place in the Pacific Northwest 
a system of river governance that deals with fish and wildlife, 
as well as power and many other issues that are at stake; 
transportation, and flood control, irrigation and so forth. One 
which lets all of us participate in that process and which 
allows all of those interests and concerns to be brought to the 
table when issues are being made as to how we will govern our 
river.
    Again, Mr. Chairman, I thank you for bringing this 
committee to Idaho, and I'm sure that you will find a 
significant amount of important information that will help you 
better understand our issues today.
    Thank you.
    [The prepared statement of Hon. Michael Crapo may be found 
at end of hearing.]
    Mr. Doolittle. Thank you very much.
    We have three distinguished panels of witnesses at today's 
hearing.
    On our first panel, we have Mr. Todd Maddock, who is a 
member of the Northwest Power Planning Council. He will then be 
followed by Brigadier General Robert H. Griffin, the Northwest 
Division Commander of the U.S. Army Corps of Engineers, who 
will then be followed by Mr. Jack Robertson, Deputy 
Administrator of the Bonneville Power Administration. He will 
then be followed by Mr. William Stelle, Jr., Northwest Regional 
Director of the National Marine Fisheries Service. And then our 
final witness on this panel will be Mr. Samuel N. Penney, 
Chairman of the Nez Perce Tribal Executive Committee.
    As is customary with this Subcommittee, we would ask you to 
rise and to raise your right hands and take the oath. The 
witnesses have been previously advised of the Subcommittee's 
intention to place all witnesses under oath. And if you would 
raise your right hands.
    [Witnesses sworn.]
    Mr. Doolittle. Let the record reflect that each responded 
in the affirmative.
    Under the Committee rules, we have these three lights 
before you, and we would ask you to attempt to keep your 
testimony to 5 minutes. We have a number of witnesses today, 
and there is a certain time constraint related to flights and 
the use of the room.
    At the beginning of the fifth minute, the yellow light will 
go on, just as a guide. We won't cut you off when the red light 
goes on, but try and wrap up as quickly as possible.
    And with that, Mr. Maddock, I will recognize you for your 
testimony.

  STATEMENT OF TODD MADDOCK, MEMBER, NORTHWEST POWER PLANNING 
                            COUNCIL

    Mr. Maddock. I am having a little difficulty here with our 
speaker, but, Mr. Chairman, and Congresswoman Chenoweth and 
Congressman Crapo and other distinguished guests, I am Todd 
Maddock, one of Idaho's two representatives to the Northwest 
Power Planning Council.
    I am here today to present comments on behalf of Governor 
Phil Batt. The Governor would like to extend his warm welcome 
for the entire state of Idaho.
    It's a pleasure to have this committee in Lewiston to 
receive comments on river operations. The configuration of dams 
on the Snake and Columbia Rivers are critical to the survival 
of our salmon and steelhead, and to our water-based economy. 
Not just here in Lewiston, which is the furthest inland 
oceangoing port on the Columbia and Snake River system, but 
also our salmon and steelhead fishermen and the commerce they 
generate, our river-based recreation industries, and to the 
irrigated agricultural lands that lie upstream in Southern 
Idaho.
    These rivers, with their dams and anadromous fish, have 
caused a public debate unparalleled in the Pacific Northwest. 
Regional and Federal Governments, namely the National Marine 
Fisheries Service, will be deciding in 1999 which recovery path 
to follow toward restoration of our salmon and steelhead runs.
    Recovery options include dam modifications, adjustment of 
river operations, perhaps including some various forms of 
drawdowns, juvenile fish transportation, increased in-river 
juvenile migration, which may include managed spills, and of 
course a combination of all of these options.
    More extreme measures are being proposed by various 
interests and other Federal agencies. These issues are dam 
breaching and heavy flow augmentation from upstream storage 
reservoirs. Both of these methods have a devastating impact on 
Idaho's economy.
    Regional leaders and managers alike are on a quest for the 
best biological, economical and social information in order to 
make these important decisions by 1999.
    A component of this decision path is the drawdown study of 
the four lower Snake River dams. The Governor of Idaho 
continues to request the best available information in order to 
resolve these river management issues. He is not willing, 
however, to sacrifice the Port of Lewiston, and is firmly 
committed to the continuation of commercial barging on both 
river systems. He is also on record supporting studies on John 
Day reservoir with all expediency so that that regional 
decision can be made relative to drawdown.
    Completion of these studies is essential to understanding 
all aspects of the issue and makes sound public policy.
    Let me note that these economic and biological studies of 
John Day are important because of its sheer size and because we 
know less about this reservoir than any other on the system.
    Funding is needed now so that we can proceed with studies 
that do not duplicate other efforts already in progress. In 
1996 and 1997 the state of Idaho proposed to the Federal 
agencies a sensible balance between juvenile transportation and 
in-river migration using controlled spill. We called this 
policy ``Spread the Risk'' and believed that it balances the 
needs of fish with important economic factors. Idaho's ``Spread 
the Risk'' strategy will also provide the additional 
information that the region needs to make the best possible 
decisions.
    Our policy has received positive response from the region 
but has been met with continual resistance from the Federal 
implementing agencies.
    The Northwest can commit up to $435 million a year to these 
efforts. Roughly $250 million of that total are going to fish 
recovery projects and research as well as capital improvements 
to the dams. Such improvements include improved fish--juvenile 
fish bypass facilities, adult fish ladders, experimental 
surface collectors, improved barges, fish guidance screens, 
improved turbines, and advanced monitoring and tracking 
systems. The remaining dollars are not actual expenditures but 
rather foregone revenue for the Bonneville Power 
Administration, depending upon the amount of spill and demand 
for electricity.
    As the Northwest Power Planning Council, the U.S. Army 
Corps of Engineers, and other Federal and state agencies in the 
region race to supply policymakers with economic and biological 
information, we must begin to make these hard choices 
concerning the recovery of our anadromous fish.
    1999 is right around the corner, and we must be prepared to 
decide how to proceed.
    The primary obstacle in finding a solution to these 
problems is deciding once and for all what is the appropriate 
decisionmaking process for the region. An effective salmon 
recovery and river governance process must include all 
responsible government entities in the region, from Federal and 
state, to tribal and local. All must be included if we hope to 
succeed.
    The current Federal process is falling on hard times 
because critical players like the state of Montana and the 
lower river Tribes are pulling out, citing National Marine 
Fisheries reluctance to work with them in good faith.
    Governor Batt also is disappointed in the Federal 
Government's reaction to Idaho's initiatives and NMFS departure 
from proper process in mid-river--mid-season river management.
    I would like to add that the Endangered Species Act, as 
currently written, works against regional efforts to recover 
the anadromous fish runs and must be sensibly reformed.
    The Governor is very troubled by the attitude of many that 
seek to manipulate the process by lawsuits. The courts are not 
the proper place to resolve this critical issue.
    The Pacific Northwest needs to come to closure on the issue 
of river governance. If a particular process is endorsed by all 
government entities in the region, and full participation 
occurred, we would not need to have Congressional hearings like 
the one here today.
    An effective river governance structure would put the 
decisionmaking authority firmly in the hands of the region's 
policymakers, as it should be. Federal agencies involved in 
this issue must actively support such a process and not merely 
provide lip service and then invoke their veto authority and 
set separate policy.
    In closing, the Governor would like to thank you for having 
this important hearing in Idaho. Drawdowns is only one of the 
many issues facing the region as we work to recover our 
anadromous fish runs. All parties must first agree on a process 
if we ever hope to make decisions necessary to see recovery 
realized.
    Thank you.
    [The prepared statement of Governor Philip E. Batt, 
Governor, State of Idaho as presented by Mr. Maddock follows:]

  Statement on behalf of Hon. Philip E. Bath, Governor, State of Idaho

    Congressman Doolittle, Congressman Crapo, Congresswoman 
Chenoweth and other distinguished guests. I am Todd Maddock, 
one of Idaho's two representatives to the Northwest Power 
Planning Council. I am here today to present comments on behalf 
of Governor Phil Batt. The Governor would like to extend his 
warm welcome from the entire state of Idaho.
    It is a pleasure to have this subcommittee in Lewiston to 
receive comments on river operations. The configuration of dams 
on the Snake and Columbia Rivers are critical to the survival 
of our salmon and steelhead and to our water based economy. Not 
just here in Lewiston--which is the farthest inland ocean-going 
port on the Columbia and Snake river system--but also to our 
salmon and steelhead fishermen and the commerce they generate, 
our river based recreation industries, and to the irrigated 
agricultural lands that lie upstream in Southern Idaho.
    These rivers, with their dams and anadromous fish, have 
caused a public debate unparalleled in the Pacific Northwest. 
Regional and federal governments, namely the National Marine 
Fisheries Service, will be deciding in 1999 which recovery path 
to follow toward restoration of our salmon and steelhead runs. 
Recovery options include dam modifications; adjustments to 
river operations, perhaps including some various forms of 
drawdowns; juvenile fish transportation; increased in-river 
juvenile migration which may include managed spills; and, of 
course, a combination of all these options. More extreme 
measures are being proposed by various interests and other 
federal agencies. These issues are dam breaching and heavy flow 
augmentation from upstream storage reservoirs. Both of these 
methods would have a devastating impact on Idaho's economy.
    Regional leaders and managers alike are on a quest for the 
best biological, economical and social information in order to 
make these important decisions by 1999.
    A component of this decision path is the drawdown study of 
the four lower Snake River Dams. The Governor of Idaho 
continues to request the best available information in order to 
resolve these river management issues. He is not willing, 
however, to sacrifice the port of Lewiston, and is firmly 
committed to the continuation of commercial barging on both 
river systems. He is also on record supporting studies at John 
Day Reservoir with all expediency so that a regional decision 
can be made relative to drawdown. Completion of these studies 
is essential to understanding all aspects of the issue, and to 
make sound public policy.
    Let me note that these economic and biological studies of 
John Day are important because of its sheer size, and because 
we know less about this reservoir than any other on the system. 
Funding is needed now so that we can proceed with studies that 
do not duplicate other efforts already in progress.
    In 1996 and 1997, the state of Idaho proposed to the 
federal agencies a sensible balance between juvenile 
transportation and in-river migration using controlled spill. 
We call this policy ``Spread the Risk'' and believe that it 
balances the needs of the fish with important economic factors. 
Idaho's Spread the Risk Strategy will also provide the 
additional information that the region needs to make the best 
possible decisions. Our policy has received positive response 
from the region, but has been met with continual resistance 
from the federal implementing agencies.
    The Northwest can commit up to $435 million a year to these 
efforts. Roughly $250 million of that total are going to fish 
recovery projects and research as well as capital improvements 
to the dams. Such improvements include improved juvenile fish 
by pass facilities, adult fish ladders, experimental surface 
collectors, improved barges, fish guidance screens, improved 
turbines, and advanced monitoring and tracking systems. The 
remaining dollars are not actual expenditures, but rather, 
forgone revenue for the Bonneville Power Administration 
depending upon the amount of spill and demand for electricity.
    As the Northwest Power Planning Council, the U.S. Army 
Corps of Engineers, and other federal and state agencies in the 
region race to supply policy makers with economic and 
biological information, we must begin to make these hard 
choices concerning the recovery of our anadromous fish. 1999 is 
right around the corner, and we must be prepared to decide how 
to proceed.
    The primary obstacle for finding a solution to these 
problems is deciding once and for all what is the appropriate 
decision making process for the region. An effective salmon 
recovery and river governance process must include all 
responsible government entities in the region, from federal and 
state, to tribal and local. All must be included if we hope to 
succeed. The current federal process is falling on hard times 
because critical players like the state of Montana and the 
Lower River Tribes have pulled out, citing the National Marine 
Fisheries Service's reluctance to work with them in good faith. 
Governor Batt is also disappointed with the federal 
government's reaction to Idaho's initiatives and NMFS's 
departure from proper process in mid-season river management.
    I would like to add that the Endangered Species Act (ESA) 
as currently written works against regional efforts to recover 
the anadromous fish runs, and must be sensibly reformed. The 
Governor is very troubled by the attitude of many that seek to 
manipulate the process by lawsuits. The courts are not the 
proper place to resolve this critical issue.
    The Pacific Northwest needs to come to closure on the issue 
of river governance. If a particular process was endorsed by 
all government entities in the region, and full participation 
occurred, we would not need to be having congressional hearings 
like the one here today. An effective river governance 
structure would put the deci-

sion making authority firmly in the hands of the region's 
policy makers, as it should be. Federal agencies involved in 
this issue must actively support such a process, and not merely 
provide lip service and then invoke their veto authority and 
set a separate policy.
    In closing, the Governor would like to thank you for having 
this important hearing in Idaho. Drawdown is only one of the 
many issues facing the region as we work to recover our 
anadromous fish runs. All parties must first agree on a process 
if we ever hope to make the decisions necessary to see recovery 
realized.
    Thank you.

    Mr. Doolittle. Thank you very much.
    Gen. Griffin, you are recognized for your testimony.

  STATEMENT OF BRIGADIER GENERAL ROBERT H. GRIFFIN, NORTHWEST 
        DIVISION COMMANDER, U.S. ARMY CORPS OF ENGINEERS

    Gen. Griffin. Thank you, Mr. Chairman, and the other 
Committee members and distinguished guests. I am General Robert 
Griffin, Commander of the newly formed Northwestern Division, 
that was part of the 1997 Energy and Water Development 
Appropriations Act that said the Corps must get to between six 
and eight divisions.
    In the process there you might wonder what happened to 
North Pacific Division that I took command of. It is now 
combined with the Missouri River Division. So I have offices in 
both Portland and Omaha. Clearly, by my being here today, those 
dual duties will not take away from my salmon recovery efforts. 
That I can assure you.
    I now have five districts. I lost Alaska. I have Seattle, 
Walla Walla, Portland, Kansas City and Omaha.
    I appreciate the opportunity to appear before you today. 
There are three areas I want to touch on: the proposed drawdown 
studies that we have on the lower Snake River, and the one that 
is currently in abeyance on the John Day reservoir; the 
potential effects of drawdown options for the Snake River 
study; and also the regional coordination that we will do 
during the study process.
    Sir, I have submitted detailed written testimony for the 
record. And, sir, I would also like to add a lot of the points 
you made, I am just going to reinforce some of them very 
quickly. Your opening statement pretty well reflects my oral 
statement here.
    The Corps in cooperation with the region is conducting a 
feasibility study of options for improving fish passage 
conditions over the long-term in the lower Snake Reservoir, or 
river system.
    The options are, Ma'am, I would like to reiterate, 
permanent natural river drawdown is one option, surface bypass 
is another, and the existing condition with fish passage 
improvements is another.
    We are doing this in accordance with the biological 
opinion, but we are also doing these studies because we believe 
that these drawdowns offer a potential for improved salmon 
survival at the dams.
    The drawdowns would likely provide better in-river 
conditions, it would eliminate adult and juvenile salmon 
passage mortality at the dams. And it will improve speed 
through the river system.
    And the challenge is, sir, as we talked earlier, to 
quantify these benefits and determine whether this will lead to 
recovery of the salmon stocks.
    Our charge is to perform a regional analysis to develop the 
best scientific information. There will definitely be 
tradeoffs, sir, as you admit, or stated there. We will not 
breech the damages, we would in effect go around them. This is 
on the Snake River.
    The powerhouses, spillways and navigation locks would be 
decommissioned, and in effect mothballed. The preliminary 
construction estimate to implement a permanent natural level 
drawdown at the four dams is $530 million.
    Sir, I would like to highlight that is a very preliminary 
number. It is about 4 years old, taken out of a System 
Operations Review study that we had done before. It does not 
include any mitigation or any other impacts, such as lost 
revenue to BPA.
    As you say, sir, it would radically change our multi-
purpose projects as we know them today. Facilities for 
irrigation, municipal and industrial water supply would be 
rendered unusable without costly modifications which at this 
point we estimate at about $35 million. Commercial navigation 
of the lower Snake River would be eliminated. Our current study 
of natural river level drawdown is a detailed engineering, 
biological, social, and economic analysis. So it will look at 
all of those in great detail.
    The report, sir, as you say, and the accompanying EIS, and 
that is very important, these two documents go together. There 
will be a report, and an Environmental Impact Statement, along 
with environmental assessment and the bilogical opinion done by 
National Marine Fisheries Service. Those will be produced in 
1999, according to the 1995 biological opinion.
    This study will serve as a basis for decisions on whether 
drawdowns or other alternatives, such as surface bypass or 
improvements to existing systems, should be implemented.
    Regarding John Day reservoir drawdown, sir, we have already 
looked at what is called minimum operating pool. We have 
studied that. We will not study that again, and the Power 
Planning Council also asked us not to do that. So we will not 
do that.
    Our study of deeper drawdowns to spillway crest or natural 
river was suspended pending scientific justification as a 
result of the 1996 Energy and Water Development Appropriations 
Act. We got that justification from NMFS and have gone back to 
the two subcommittees, House and Senate. We asked for $1.5 
million in study money in 1997. And also $3.2 million in 
fisscal year '98 to continue the studies.
    Sir, that request to continue the study and the 
documentation is with the Subcommittees now, and we have not 
gotten a response.
    So, on the John Day drawdown, I can neither give you a 
scope, nor a schedule, until we get money back and can work 
with the region to scope this and then come up with a cost and 
time schedule.
    Coordination, sir, on the lower Snake River feasibility, we 
see as very important. We will work, coordinate closely with 
all interests throughout the study and the EIS process.
    In fact, we have regional groups working now to evaluate 
the biological benefits and economic effects. Two of those are 
the Drawdown Regional Economic Work Group and the PATH group, 
which is the Plan for Analyzing and Testing Hypothese, It will 
provide the scientific rigor we need for these studies.
    We will conduct many public meetings, as required by NEPA, 
and by our study process, and we will do workshops involving 
public interest groups, state and Federal agencies, Native 
American Tribes and scientific groups. We will also communicate 
through existing work groups associated with the NMFS regional 
forum process.
    And, sir, the final comment I would like to make and 
probably the most important is, while we have the authority to 
do the study, we don't have authority to implement drawdowns 
without going to Congress for project reauthorization. So we 
can study, but we're going to have to come back to Congress if 
we change the current multi-purpose project authority that we 
have today.
    Sir, that concludes my oral testimony.
    [The prepared statement of Gen. Griffin may be found at end 
of hearing.]
    Mr. Doolittle. Thank you, sir.
    Mr. Robertson is recognized.

 STATEMENT OF JACK ROBERTSON, DEPUTY ADMINISTRATOR, BONNEVILLE 
                      POWER ADMINISTRATION

    Mr. Robertson. Mr. Chairman, members of the Committee, 
thanks for the time this morning. I am going to ask again, as 
did the General, that my full statement be submitted for the 
record, and I am going to briefly summarize it.
    I want to thank the Committee first for its help to 
Bonneville in trying to get Bonneville stabilized and its 
financial condition healthy in the last 3 years.
    You are aware we have made a number of decisions, some of 
which we couldn't have made without the help of Congress and 
the administration the effect of these decisions is that we 
have cut $600 million in cost and $2,000 of our FTE. We have 
recontracted for power sales for the next 5 years for two and a 
half billion dollars per year in revenues, and thereby have 
guaranteed revenues in the bank for the next 5 years, to the 
year 2001.
    We are making our $850 million treasury payment and our 
funding to fish and wildlife that are on the average above $400 
million per year. And we have had a number of tools that we 
needed to get that done, and you helped us to do that, and I 
just wanted to officially thank you while we are here.
    We have completed an initial analysis of the effect of the 
drawdown of the lower Snake and John Day reservoirs.
    We expected that our work on the power system effects will 
be more refined and comprehensive as we participate with the 
Corps and the other parties in their drawdown feasibility 
study.
    Bonneville will review a range of alternatives and provide 
that range for both public and independent review.
    I am now summarizing my written, formal testimony.
    First of all, there are two fundamental things regarding 
draw down that I want to say today. First, there is a potential 
for lost generation and there is a question of the total cost 
associated with that, and I want to go through both of those 
things fairly quickly.
    First of all, lost generation. The lower Snake projects 
generate 1,231 average megawatts of power, or about 12 percent 
of the total Federal hydro system sold by Bonneville.
    John Day Dam generates by itself an additional 1200 average 
megawatts of power.
    With the natural river drawdown at John Day all 1200 
megawatts would be eliminated. Under a spillway crest drawdown 
alternative, 560 average megawatts would be lost.
    If the natural river drawdown option were chosen at all 
five projects, a total of just over 2400 average megawatts of 
energy would be eliminated.
    The total energy capacity of these five projects is just 
under 6,000 megawatts. The loss of revenue, energy capacity and 
energy reliability from these projects would, under existing 
law, be borne by Bonneville's system.
    The five projects represent 24 percent of Bonneville's 
system, or about 10 percent of the total regional energy 
system.
    To give a yardstick of comparison, in the last 17 years 
since the Northwest Power Act passed, Bonneville has, through 
one of the most aggressive conservation programs in the nation, 
saved 640 average megawatts of energy in the region.
    The loss of 2400 average megawatts of generation from these 
five projects represents over three times the energy 
conservation saved in the region since 1980 through 
Bonneville's conservation program.
    Now let me quickly talk about cost implications. This 
analysis only relates to energy costs. It does not include any 
costs associated with the loss of transportation, recreation, 
irrigation, cultural resources or other issues. The Corps 
General has already indicated those will also be studied as 
well.
    The cost of assumptions here assume a medium forecast for 
energy prices.
    In simple terms, when considering the effect of the natural 
river drawdown, the lower Snake projects and John Day 
reservoir, there are at least five categories, or tiers of 
cost, that need to be considered.
    The first tier is debt. First there is an outstanding 
Federal appropriation or debt for the five dams. This debt is 
now the obligation of the Bonneville Power Administration and 
is paid by ratepayers of the Northwest. It totals $1.3 billion 
for the four Snake dams and John Day.
    The second tier is construction costs: bypassing the dams 
to create the natural river conditions. The Corps, as the 
General indicated, has already estimated preliminarily that the 
cost of lower Snake drawdowns is just about $500 million.
    Our analysis done for the Northwest Power Planning Council, 
assumes the cost of the John Day construction would be a little 
under $1 billion. These are preliminary costs and they would 
total, if put together, about $1.5 billion. That's the second 
tier.
    The third tier of costs is the largest, and that is related 
to the energy revenue that would be lost to Bonneville as a 
result of bypassing generation at the projects.
    Our initial assessment assumes again a medium price 
forecast for energy, out into the future, and that the 1995 
biological opinion operations on the river, including flow and 
spill programs on the Columbia system, remain in place. Changes 
in energy prices and river operations could affect these 
numbers up or down.
    With these assumptions, then, the net present value today 
of the future lost revenues associated with electric generation 
at the lower Snake projects, if they were removed, is $3.5 
billion. On a levelized annual basis, this would be about $208 
million per year over the next 50 years.
    The value for lost generation, assuming natural river 
drawdown at John Day, is $228 million per year, or just over $4 
billion in net value for the next 50 years.
    Spillway crest drawdown at John Day would reduce the $228 
million per year figure by roughly half.
    Therefore, the total net present value of lost revenues 
from the natural river drawdown at all five projects, to give 
this some context, would total just over $7.5 billion in 
today's dollars. This value accounts for $1.8 billion in costs, 
operating and maintaining and rehabilitating these projects 
that will need to be invested in the projects during their 
remaining life.
    So, in other words, that number is netted against the $1.8 
billion already.
    There are two other tiers of potential costs that should 
also be considered, although we don't have specific numbers for 
them today.
    The first is electrical reliability. The loss in hydro 
generation capability of these projects may have serious 
electrical reliability implications. The scope of the impacts 
would depend on when, where, how the lost generation was 
replaced and whether additional transmission lines would need 
to be built.
    We used, for example, these projects quite extensively in 
the freeze of 1989 when we were going beyond the regional 
energy system's capacity by significant amounts, and they were 
very valuable then.
    Much more analysis needs to be done before we could judge 
the cost associated with maintaining the reliability of the 
regional system.
    No costs have been included in the analysis I just 
presented to account for potential system reliability impacts.
    Finally, air quality. The electric energy produced by these 
renewable hydro projects is energy that is compatible with 
clean air. Bonneville recently received an award from the 
National Resources Defense Council for having the lowest of air 
emissions of any electric generation system in the west. 
Federal standards are being considered to place additional cost 
on electric generation from coal, oil or natural gas to 
mitigate the pollution they cause, including CO2 pollution.
    If the hydro generation from the four Snake projects alone 
were lost and replaced by modern combustion, in other words, 
state-of-the-art combustion turbines fired by natural gas, our 
preliminary analysis indicates it would result in over four 
million metric tons of CO2 per year in the atmosphere. Loss of 
John Day generation would significantly increase likely double, 
this number.
    So, finally, the cumulative rate impacts, which I will try 
to summarize here, because I am over my time. Despite our cost 
cuts, Bonneville is still about 10, 20 percent above the 
marketplace right now. We hope that the marketplace will 
change. Our contracts are locked up for 5 years. We are looking 
to get our costs down to two cents in 2000, and we think that 
will make us competitive. But right now we are about 10 percent 
or 20 percent over market.
    If we were adding together all of the costs I just 
described and applying them to a rate impact, it would depend 
upon how many of those tiers of costs were borne by the 
ratepayers versus the taxpayers, add 10 to 25 percent on our 
cost structure.
    In today's market conditions, we simply couldn't do that 
without ending up having serious economic impacts for the 
agency and the U.S. Treasury. And what those would be, I think, 
requires further analysis. We are committed to do that as a 
result of the Corps study.
    And with that, Mr. Chairman, I will submit my testimony.
    [The prepared statement of Mr. Robertson may be found at 
end of hearing.]
    Mr. Doolittle. Thank you. Mr. Stelle is recognized.

STATEMENT OF WILLIAM STELLE, JR., NORTHWEST REGIONAL DIRECTOR, 
               NATIONAL MARINE FISHERIES SERVICE

    Mr. Stelle. Mr. Chairman, and Mrs. Chenoweth, Mr. Crapo, 
thank you for the invitation for us to testify here today 
before you. I appreciate that.
    I'm going to skip the details of my written testimony I 
would like to submit it for the record and summarize a couple 
observations.
    The NMFS role and the Federal role in the recovery and 
restoration of anadromous fish in the Snake basin is in some 
respects fundamentally fairly simple. It is to develop a 
restoration effort that meets the requirements of Federal law 
that is biologically sound, and legally defensible.
    Those Federal laws include the Federal Endangered Species 
Act, Clean Water Act, Northwest Power Planning Act, and 
importantly, Federal trust obligations to the treaty Tribes of 
the Columbia and Snake Basin.
    The recovery effort is a comprehensive effort that involves 
all stages of the life cycle. It involves improving and 
protecting freshwater spawning and rearing habitat, improving 
survivals through the downstream migration through the 
hydropower corridor, improving survivals while the salmonids 
are in the ocean, and when they return to their spawning 
grounds.
    The restoration effort, thus, is a comprehensive cradle-to-
grave effort.
    The topic that we will discuss today in more detail is but 
one component of that larger effort. It is how do we improve 
survivals of these salmonids through the main stem migration 
corridor that is populated by at least eight major Federal 
dams.
    The 1995 biological opinion by the National Marine 
Fisheries Service found that the Federal hydropower system does 
jeopardize the continued existence of these runs, and it needs 
to be improved.
    The NMFS opinion developed an alternative that calls for 
interim measures to immediately improve salmon survivals while 
additional information is developed on the long-term options 
for the system itself. Those decisions on the long-term are 
scheduled for 1999.
    Going back to my first major point concerning a legally 
defensible and biologically sound approach, we are pleased that 
a Federal Court recently concluded that this opinion and its 
implementation by the Federal agencies meets the requirement of 
the Endangered Species Act and Federal law.
    We have been and remain committed to a biologically sound 
and legally defensible restoration strategy for anadromous 
salmonids, and the decision of the court is gratifying.
    We were furthermore impressed that Montana, Idaho, Oregon, 
Washington, and Alaska all argued in the litigation for full 
and effective implementation of that opinion as the proper 
pathway.
    Given the substantial disagreements over salmonid recovery 
here in this system, that is progress indeed.
    Today, as at the time when NMFS issued its the biological 
opinion, there is a rift on what is the best pathway to improve 
survivals through the hydropower corridor.
    One side argues that the runs have declined to the point of 
listing during the two decades that we have been barging fish 
around the Federal dams instead of sending them through them, 
and it is time to conclude that barging doesn't work and to put 
the fish back in the river because that will be a better 
course. And change the configuration of the system by taking 
out some of the dams--Snake dams or main stem dams.
    The other side arguing that factors beside the hydropower 
system have led to the fishes' decline, that juvenile fish 
transportation provides about as much improvement in salmon 
survival as would the removal of the Snake dams, and that given 
the present configuration of the dams, the best thing to do in 
the immediate term is to transport as many fish as one can 
collect.
    In light of these deep divisions within the region, NMFS 
has identified several areas of uncertainty and committed to 
addressing them with the Army Corps of Engineers, and with the 
states and the Tribes in the region.
    These questions include what is the mortality rate of fish 
migrating in the river, what is the ability of the 
transportation system to mitigate for that mortality, what is 
the survival rate needed to ensure the survival and the 
recovery of these anadromous stocks, and will either of the two 
major pathways, continued and improved transportation, or 
natural river, get us there.
    My testimony goes through a number of the empirical studies 
that are under way to give us the data that will enable the 
region to make better choices on which option is likely to get 
us to our goal. I will not summarize those data efforts now.
    I would only emphasize to you that it is very powerful work 
underway, and we need to maintain that work and remain 
committed to it because it will give us the best information we 
can generate on which option is the best option.
    This decision cannot be by a flip of a coin. There must be 
a reasoned approach to an important decision facing the Pacific 
Northwest. The Federal agencies remain committed to that, and 
our role in particular is to develop a set of options for 
salmonid recovery and for the hydropower system to develop the 
information on what each of those options may buy us and what 
they may cost us. And then to engage in a discussion with the 
leadership of the Pacific Northwest to answer the question, 
which option is the right option for the region.
    That is the pathway we are on. We remain committed to it. 
We remain committed to a collaboration with the states and the 
Tribes in that effort. And first and foremost and 
fundamentally, we re-

main committed to generating the best science we can to use as 
the compass in that decisionmaking.
    Mr. Chairman, thank you.
    [The prepared statement of Mr. Stelle may be found at end 
of hearing.]
    Mr. Doolittle. Thank you, sir.
    Mr. Penney, you are recognized for your testimony.

   STATEMENT OF SAMUEL N. PENNEY, CHAIRMAN, NEZ PERCE TRIBAL 
                      EXECUTIVE COMMITTEE

    Mr. Penney. Thank you, Mr. Chairman, Representatives 
Chenoweth and Crapo.
    I would like to thank you for this opportunity on behalf of 
the Columbia River Inter-Tribal Fish Commission and the Nez 
Perce Tribe, and I would like to welcome you to Nez Perce 
country. The Nez Perce Tribe originally occupied over 13 
million acres which included Northeastern Oregon and 
Southeastern Washington as well as most of North Central Idaho.
    I would also like to request my comments be submitted for 
the record.
    Mr. Chairman, I would also like to make some comments that 
are not in my written testimony, and first of all, I think as 
far as the Treaty reserved rights of the Columbia River Tribes 
that are involved, that Article VI of the U.S. Constitution I 
think verifies the rights that the Tribes have reserved.
    Our treaties are not between any department, between any 
agency, or any Bureau. It is with the U.S. Government. And I 
think the Article VI supports my statement in my written 
comments.
    Mr. Chairman, I would also like to point out, there were 
three important scientific studies that have been completed in 
1996.
    One is entitled Return to the River, Restoration of 
Salmonid Fisheries to the Columbia River Ecosystem, and that's 
by the Independent Scientific Group submitted to the Northwest 
Power Planning Council.
    There is a salmon decision analysis regarding the lower 
Snake River feasibility study by Harza Northwest, that was 
submitted to the Army Corps of Engineers in what they call 
PATH, Plan for Analysing and Testing Hypotheses, conclusions of 
the fiscal year 1996 retrospective analysis. And that's 
conducted by 22 authors, and it was submitted to the National 
Marine Fisheries Service.
    All three of these reports devote significant analysis to 
the drawdown proposals.
    Mr. Chairman, at this time I would like to submit for the 
record, what is entitled the Spirit of the Salmon, which is the 
restoration plan that the Tribes have proposed.
    What's interesting about the Spirit of the Salmon, is that 
the scientific conclusion of those various reports rendered in 
these studies, support some of the ideas in the Spirit of the 
Salmon.
    And I think all three of the reports that I have referenced 
conclude that drawdowns of lower Snake River dams would bring 
the salmon back to these areas.
    There was also mentioned earlier, Mr. Chairman, the role of 
the Northwest Power Planning Council and the other agencies, as 
mentioned by Mr. Maddock.
    But under the Northwest Power Act, it states that these 
Federal operating and regulating agencies are directed by 
Congress to exercise their responsibilities in a manner 
consistent with the purposes of the Act and other applicable 
laws to provide equitable treatment for fish and wildlife.
    And it also states in the purpose of that Act that it must 
also counter past damage and work toward rebuilding those fish 
and wildlife populations that have been hampered by the hydro 
system.
    And we also realize, Mr. Chairman, that the Council must 
develop this program while assuring the Pacific Northwest an 
adequate, efficient, economical and reliable power source.
    Also, Mr. Chairman, the conclusions as stated in my written 
testimony regarding the natural river drawdowns of the lower 
Snake River dams, John Day pool to spillway crests, are 
critical to, one, greatly increase spawning areas and 
production potential; No. 2, ensure that adults reach spawning 
areas by reducing migratory energy demands; and three, reduce 
temperatures and dissolved gas; four, scientifically increase 
juvenile travel time and reduce substantial juvenile 
mortalities through dams.
    Mr. Chairman, I think as stated, you know, this should be a 
regional issue, and we believe that there is a critical need 
for an inter-governmental decisionmaking process that will 
protect and restore fish and wildlife, while allowing 
sustainable use of the river, including power, irrigation and 
navigation.
    I think our main point, Mr. Chairman, is that the status 
quo that has been going on is totally unacceptable to the 
Tribes.
    We are looking forward to engaging in discussions at the 
highest level of the goverment- to-government level 
consultation, and we are encouraged that the states, Federal 
Government and Tribes are participating in a meeting next week 
on June 3rd among the sovereigns to discuss beginning to work 
together to assure fish and wildlife restoration in the face of 
energy deregulation as mentioned by Congressman Crapo.
    So we do believe that this is a complicated issue.
    I appreciate having the hearing here to gather information 
on how we can best address these problems, and can assure you, 
as well as the others on the panel, that we're committed to 
fishery restoration.
    Thank you.
    [The prepared statement of Mr. Penney may be found at end 
of hearing.]
    Mr. Doolittle. Thank you. The members will now have an 
opportunity to address questions to the panel.
    Mr. Maddock, what is the current position of the Northwest 
Power Planning Council with respect to juvenile fish 
transportation?
    Mr. Maddock. We have a plan that was adopted in 1994.
    Mr. Doolittle. Could you pull that mike a little closer, 
please?
    Mr. Maddock. Our plan which was adopted in 1994, but which 
is currently being amended, so I would have to say that 
question remains open.
    Mr. Doolittle. Any ideas which direction the amendment is 
going to go?
    Mr. Maddock. Well, clearly it's a matter of learning each 
year more about the survival that's occurring, both in-river 
and through transportation.
    And that's one of the reasons why the state of Idaho had 
taken a ``Spread the Risk'' approach, was to gain better 
understanding and a better comparison scientifically of what 
the best method would be.
    This year may be a critical year as far as understanding 
more fully just what that comparison is. But we don't have the 
results this year in fully.
    So I would have to say we don't, at this point we wouldn't 
be able to answer that question until we have more information 
available.
    Mr. Doolittle. And what has been the Northwest Power 
Planning Council's position on Idaho's ``Spread the Risk'' 
strategy?
    Mr. Maddock. I think that's been not something that's been 
fully endorsed by the Northwest Power Planning Council, but the 
council members, state of Idaho developed the program and have 
advanced it through the Executive Committee process, which 
includes--which is essentially the Federal agencies and the 
Northwest Power Planning Council and the tribal interests, 
that's the existing process under which we've tried to work 
toward regional consensus.
    And that's what we were referring to in our comments, that 
we didn't find that to be completely implemented by the--by 
that executive committee process.
    Mr. Doolittle. You stated that the Governor is not willing 
to sacrifice the Port of Lewiston.
    Could the Port survive if the permanent drawdown of the 
four lower Snake River dams is implemented?
    Mr. Maddock. Any operations of the Snake below minimum 
operating pool would stop transportation and navigation on the 
Snake River.
    So, drawdowns would eliminate that as an option.
    Mr. Doolittle. Even if the permanent drawdown of the four 
lower Snake dams is not adopted, could the Port survive if the 
John Day Dam is drawn down below the minimum operating pool, 
the spillway crest, or to natural river level?
    Mr. Maddock. It's my understanding that there is a reason 
to believe that that's worth--there's additional information 
needed in order to answer that question.
    At one time there was some discussion that there might be 
possibly the ability to transport with a drawdown on John Day. 
But that question I think remains open, and undecided.
    Mr. Doolittle. Gen. Griffin, do you have an opinion on that 
issue?
    Gen. Griffin. Sir, if you go to spillway crest, I believe 
navigation could continue, although the characteristics of the 
barges that would be on the river would be different. They 
couldn't draft as much. Exactly how much, I'm not sure.
    If you carry it all--and there would have to be some 
channel deepening efforts that would have to go along with 
that, and there would be an associated cost with that.
    And so there would be a definite economic cost, mitigation 
cost, if you will, if you tried to continue navigation and 
spillway crest.
    Mr. Doolittle. How many miles of deepening efforts would be 
required, do you believe?
    Gen. Griffin. Sir, I'm uncertain of that. I would not be 
able to answer that.
    Mr. Doolittle. All right. Well, let me go back to Mr. 
Maddock.
    Do you think that the studies currently underway will 
provide significant new data to the policymakers who are 
scheduled to make important decisions on river operations in 
1999?
    Mr. Maddock. Oh, I think they definitely will.
    Mr. Doolittle. Do you think the questions about what is 
effective and isn't effective will be resolved by the time that 
study comes out?
    Mr. Maddock. I can't attest that all that information will 
be clear to us by that time, but we certainly will know a lot 
more, and I think will be able to make better decisions, based 
on what we're currently doing today.
    Mr. Doolittle. OK.
    Gen. Griffin. Sir?
    Mr. Doolittle. Yes. General.
    Gen. Griffin. In answer to your question, the river miles 
that would be affected by spillway crest would be 20 to 25 
miles.
    Mr. Doolittle. So we would need to have that amount of 
dredging, then, to allow for the navigation?
    Gen. Griffin. Yes, sir, some amount in there. And depending 
on whether it's hard pan or loose material, the cost could be 
high.
    Mr. Doolittle. OK. Thank you.
    Let me just indicate to the members, I think we will 
probably do two rounds of questioning, so let me recognize Mrs. 
Chenoweth at this point.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mr. Maddock, I'm very interested in both your comment and 
my colleague's comments, Mr. Crapo, about having a regional 
power governance authority.
    For the record, how does that relate to what is already in 
place in the flow augmentation?
    Mr. Maddock. Mr. Chairman, and Congressman Chenoweth, the 
Northwest Power Planning Council is only one forum that is 
addressing regional issues. There has been, since--well, in the 
last 2 years, an Executive Committee approach that brought all 
of the Federal agencies together, and was nominally chaired by 
NMFS, and so that is a parallel process to the Northwest Power 
Planning Council.
    And of course some of the operating agencies have 
previously had the system operations review which joined 
together the three major Federal agencies as well.
    So there are a variety of groups that are currently looking 
at river management decisions right now due to the ESA, NMFS 
and the Executive Committee decision approach have apparently 
the most, strongest legal position in order to do this.
    But that's the one that was referred to in my comments, 
were Montana and the lower Tribes have indicated that they no 
longer want to participate in that process.
    So we have a rather fragile and multifaceted system right 
now. We really need to find a way to bring that all together.
    Mrs. Chenoweth. Mr. Maddock, could you explain for me how 
the parallel organization that you referred to, parallel to 
your organization, has a stronger legal position?
    Mr. Maddock. Well, I say that, and that's speculation on my 
part, but to the extent that the ESA has--is the authority 
under which NMFS is looking, developing their recovery plan, 
that is the legal authority for the Executive Committee 
approach. And it's one that does bring the various agencies 
together, including the Northwest Power Planning Council.
    Mrs. Chenoweth. Thank you, Mr. Maddock.
    Gen. Griffin, welcome to Idaho.
    Gen. Griffin. Thank you.
    Mrs. Chenoweth. I hope you enjoy your new huge 
responsibility, half the country. My goodness.
    You mentioned in your testimony, I'm not sure that you read 
this part, that the Corps has eight major dams on the Columbia. 
And those lower Columbia dams that we're involved with here 
that help provide for our Port, slack water for our Port, are 
the Ice Harbor Dam, Lower Monumental Dam, Little Goose and the 
Lower Granite Dams.
    In my opening statement I made mention of three 
feasibility--three options in your feasibility study. And that 
the first two had been determined not to be feasible to go 
ahead and study, and that's contained in your testimony in 
paragraph 2 on page 2, isn't that correct.
    Gen. Griffin. Yes, ma'am. For drawdown options, the only 
drawdown option that is feasible is to natural river level. But 
there are other options in the study that we're looking at, 
which is current condition and improved condition.
    Mrs. Chenoweth. But those were determined not to be part of 
this study.
    Gen. Griffin. No, ma'am, they are being evaluated as 
alternatives to drawing down the reservoirs.
    Mrs. Chenoweth. Right. OK. I see that my light is on, Mr. 
Chairman, and I had another question that I wanted to ask the 
General.
    Mr. Doolittle. Just go ahead and ask. As long as it is 
yellow.
    Gen. Griffin. I will just have to answer fast.
    Mrs. Chenoweth. General, on page 3, top of page 4, you 
indicate that the impacts of natural river drawdowns on the 
lower Snake river water and power users, your testimony goes 
through the impacts on fish passage, on irrigation, 1991 
inventory, identified a total of 31 withdrawal facilities on 
the four lower Snake projects, on navigation you said, at the 
top of page 4, and I don't believe this was testified to, but 
all commercial navigation on the lower Snake River from its 
confluence with the Columbia River to Lewiston, Idaho, will be 
eliminated.
    Gen. Griffin. Yes, ma'am.
    Mrs. Chenoweth. Isn't that correct?
    Gen. Griffin. Yes, ma'am.
    Mrs. Chenoweth. All right. Thank you, Mr. Chairman. I will 
yield.
    Mr. Doolittle. All right. Thank you.
    Mr. Crapo, you are recognized.
    Mr. Crapo. Thank you, Mr. Chairman.
    I would like to go first to Mr. Stelle. Surprise?
    In your testimony you pretty well described some of the 
competing approaches to how we will protect the salmon and 
steelhead.
    Could you compare for me the relative need for flow 
augmentation from storage water in Idaho between the two 
approaches that you discussed?
    Mr. Stelle. Yes. First of all, let me describe the function 
of flow augmentation.
    Mr. Crapo. Sure.
    Mr. Stelle. The function of flow augmentation under the 
current operations is two fold, one of which is to try to 
operate this system the way we have it in as most fish friendly 
way as possible in order to best evaluate what kind of 
improvements in salmon survivals can we milk out of this system 
as it is currently configured.
    Based upon that, and based upon some general information 
that flows help fish, we identified in the biological opinion 
some general ranges of good flows that we believe represent 
good conditions for migrating fish. And we have recommended to 
the Corps and Bureau that they pursue those flow objectives in 
the operation of the system itself.
    We are also then paralleling this operation with some very 
specific monitoring efforts on what are fish survivals in each 
of the pools in each of the projects as we go down the river, 
for the entire year, year by year.
    And as we implement this operation, we will get very 
specific, very hard data on what the fish are doing under a 
full range of environmental conditions that we experience over 
this four or 5 year period.
    The purpose of flow augmentation is to try to improve in-
river migration conditions as best we know how now so that we 
can also measure it and see whether or not we can tease out any 
specific hard data, correlating fish survivals with flows.
    Mr. Crapo. But as between the two competing approaches as 
to how to best help the fish, in which--what's the comparative 
need for flow augmentation?
    Mr. Stelle. To improve in-river conditions for in-river 
migrants.
    Mr. Crapo. Meaning that the in-river approach would require 
more flow augmentation?
    Mr. Stelle. Meaning that in order to maximize the survivals 
of in-river migrants, we want to try to provide good water for 
those fish, yes.
    Mr. Crapo. When you say good water, what are you talking 
about?
    Mr. Stelle. The flow objectives that we stipulate for 
spring, summer Chinook, there are two sets of them, one for the 
Snake system, one for the Columbia, and, Dave, you may need to 
help me on this, but I think the Snake River flow objectives 
are around a hundred kcfs for springtime; for spring Columbia 
River, it's around 200, from 200 to 240, or something like 
that.
    Mr. Crapo. So are you saying that the natural river option 
would require increased flow augmentation?
    Mr. Stelle. The natural river option may or may not. It 
depends.
    First of all, the natural hydrograph of the Snake, how did 
this river used to work before we built the Hells Canyon 
complex, before we built the big project, the Bureau projects, 
before we built the Corps lower Snake dams.
    Well, the hydrograph, the way this river used to run, were 
big powerful flows in the springtime that would taper off in 
the summer.
    And you know this very well, I know, Congressman.
    Under a natural river drawdown scenario, though, it is, 
and, again, I am estimating here, flow augmentation in the 
springtime may not be necessary, depending on how the Hells 
Canyon complex is operated. If it holds all the water back in 
the springtime, fish won't do well.
    So we are still going to have to have contributions in the 
springtime and for spring, summer migrants, given the fact that 
we have the ability to control those upstream resources.
    Mr. Crapo. Would dam modifications of various types--What I 
am talking about is the alternatives, looking at using the 
status quo and then improving it, would dam modifications of 
various types and other types of improvements increase or 
reduce the need for flow augmentation?
    Mr. Stelle. My guess at this stage, Congressman, is reduce.
    Mr. Crapo. Would you tell me exactly what the----
    Mr. Stelle. And that applies both from the upper Snake and 
the upper Columbia.
    Mr. Crapo. Could you tell me, when we talk about new and 
improved transportation packages, to try to improve the current 
system but keep it operational, what are we talking about 
there?
    Mr. Stelle. Improving the ability to collect the little 
fish at the dams, first and foremost.
    Second, improving the ability of the big fish to get back 
home.
    Mr. Crapo. And those general categories you are talking 
about there, if implemented properly, you believe will reduce 
the need for flow augmentation?
    Mr. Stelle. Those--Improving our ability to collect fish 
will maximize the benefits, if there are benefits, to the 
transportation system because more fish will be transported, 
less fish will be left in the river to go through the turbines 
and die.
    So the ability to--the improved ability to collect fish 
doesn't necessarily tell you whether or not you will barge them 
or bypass them back into the river. It simply means that you 
will reduce the number of fish going through the turbines.
    And fundamentally, if you are a little fish, you don't want 
to go through those turbines.
    So the improved collections still leaves open the issue of 
whether you want to barge them or do you have a healthy enough 
river environment that you want to put them back in the river.
    Mr. Crapo. Thank you. I see my time has expired. I will 
followup on the next round, Mr. Chairman.
    Mr. Doolittle. Thank you. Mr. Stelle, you referred to 
sticking to the best science, in your testimony.
    Does the best current science show higher rates of survival 
for out-migrating juveniles that are in in-river or those that 
are transported?
    Mr. Stelle. Those that are transported.
    Mr. Doolittle. All right.
    Mr. Stelle. Mr. Chairman?
    Mr. Doolittle. Yes.
    Mr. Stelle. I could describe to you the basis of that 
conclusion, if you would like. I would simply note that there 
are very powerful empirical studies underway now whereby we are 
getting very accurate information about what's going on in the 
system with the fish.
    And we are getting early returns this year to answer the 
question, who does better, and the data right now will be in 
this year and next year, and basically we are seeing about a 
two to one benefit for those that migrate downstream in the 
barges.
    You will lose 50 percent of the fish in the river, based on 
what we know, if you leave them in the river.
    Mr. Doolittle. Well, how will this be improved if 
transportation is eliminated and if permanent drawdown is 
implemented?
    Mr. Stelle. It wouldn't. It would eliminate the 
transportation option. Two questions.
    First of all, what kind of survival benefits can we get 
from the transportation system? And how do they compare to the 
survival benefits we can secure through improved in-river 
migrations?
    One is a comparative question, and then the larger, more 
fundamental question is, are either survival benefits enough to 
recover and restore these stocks. That is basically the 
analytical approach we are undertaking now.
    If the decision of the region is to go with the natural 
river drawdown because it provides a higher probability of 
restoration over the long-term, then it basically eliminates 
the transportation option. It's a decision that we won't go 
that pathway.
    Mr. Doolittle. Do you have a sense in your own mind of 
which is the more likely beneficial alternative?
    Mr. Stelle. I think that most credible fishery scientists 
would say that if the simple question you pose is what is the 
best long-term restoration strategy, regardless of other 
circumstances, they would probably recommend natural river 
drawdown.
    Mr. Doolittle. There's an Oregonian article, I have a copy 
of it here.
    Mr. Stelle. There are lots of them.
    Mr. Doolittle. Let's see. Do I have a date on this one? The 
17th, I believe, is the date, May 17th.
    Mr. Stelle. Yes.
    Mr. Doolittle. Which states that NMFS has directed the 
Corps to develop a list of all those holding permits to 
withdraw water from the system, to rank them by the degree by 
which permit hurts salmon.
    Is that indeed what NMFS has done?
    Mr. Stelle. Yes. Mr. Chairman, what we did is advise the 
Corps that continued issuance of water withdrawal permits in 
the system without regard to the cumulative impacts of those 
continuing withdrawals is no longer a good idea.
    We are recommending that we do what every good farmer does, 
and that is that recognize that there are limits in this 
system, that if we are working hard, like Idaho is, to put more 
water in the sys-

tem, it makes no sense to turn right around and take it right 
out again.
    So the policy that we have recommended to the Corps is in 
essence a no net loss policy.
    Water, new irrigation withdrawals would be permissible, but 
only if they are offset so that we don't further dig ourselves 
into a hole.
    Mr. Doolittle. Was this policy intended to apply to the 
existing water rights holders or just to the new ones?
    Mr. Stelle. It is intended not to apply retroactively to 
the existing 404 permit holders.
    Mr. Doolittle. For dredging, let's suppose they do this 
dredge, does that take a 404 permit?
    Mr. Stelle. I think that if it's a Corps project, it 
doesn't technically require a 404 permit. But it is the same 
equivalent analysis of pros and cons under the National 
Environmental Policy Act for dredging operations.
    Typically the Corps doesn't permit itself, though.
    Gen. Griffin. Sir, we have to go through the process, we 
will still go to the various state and Federal agencies.
    Mr. Doolittle. Now, we have had some problems with being 
able to do dredging in the San Joaquin River, which is not in 
your jurisdiction, I take it, but----
    Gen. Griffin. No, sir, it isn't. I have a large area, but 
not that big.
    Mr. Doolittle. And I think the contention was, because when 
the dredge pulls up the material and water spills over the 
side, you are putting water back into the river, and that 
somehow violates somebody's regulation.
    Do you know anything about that?
    Gen. Griffin. No, sir.
    Mr. Doolittle. How about you, Mr. Stelle?
    Gen. Griffin. I know you have to get a water quality 
certification from the state. It sounds like that is what it is 
tied up into.
    Mr. Doolittle. You would think if it came out of the river, 
if it spilled over the side, went back in, it wouldn't be a 
problem.
    Gen. Griffin. No, unless there was a certain amount of 
turbidity that is happening, or there could be a fish and 
wildlife impact. They may have an endangered species there that 
is in jeopardy because of the turbidity of the water.
    There are a number of things that you get into when you try 
to permit. But we really have a good relationship here in the 
Pacific Northwest.
    Mr. Doolittle. Well, it is perhaps not as rosy a situation 
in California. Which is why all of these people should be 
concerned, because as bizarre as some of these ideas seem, it 
is entirely possible that they could come to pass.
    Mrs. Chenoweth?
    Mrs. Chenoweth. Thank you. Thank you, Mr. Chairman.
    Gen. Griffin, I wanted to return to questioning you. At the 
end of your statement, didn't you say that there would be no 
dams breached? Did I understand that correctly?
    Gen. Griffin. Ma'am, what I had said was we are undergoing 
a study. As part of the biological opinion, we have been 
charged with doing a study for long-term improvements of the 
system for salmon.
    Now, one of the options then is a removal of the dam, to go 
to natural river condition.
    What I said was, I am authorized by Congress, the Corps is 
authorized to operate our projects right now for multiple 
purposes; recreation, hydropower, navigation, flood control, 
municipal and industrial water, and a few others. Fish and 
wildlife, of course, and that's why we're here.
    But if we were to alter those purposes, given Congress' 
authorization to the Corps to operate these in such a way and 
to provide money, funds to operate them in such a way, if we 
determined through a study process, that we would cease to 
operate those projects that way, we must go back to Congress to 
seek reauthorization.
    And in this case, we would do the feasibility report, and 
if there was a decision or recommendation were to go to natural 
river condition, and therefore bypass the dams, then we would 
provide a Chief's Report to the Congress requesting both 
authority and funding to proceed.
    And my point there, ma'am, was we just simply couldn't make 
this decision and the Corps could go off and do it.
    Mrs. Chenoweth. I appreciate you're saying that without the 
reauthorization of Congress, regarding your specific duties, it 
can't be done.
    I just wondered, have you seen your Section 5, Interim 
Status Report, by chance, or has anyone briefed you on this?
    Gen. Griffin. Is this the Harza report?
    Mrs. Chenoweth. No. It is an internal report. It wasn't 
sent to me. I got it off the Internet.
    Gen. Griffin. I have not seen that report, per se. I could 
be familiar with the data in it.
    Mrs. Chenoweth. It does talk about the permanent natural 
river scenario from all the other drawdown scenarios, 
structural modifications are undertaken at the dams, allowing 
reservoirs to be drained and resulting in a free-flowing river 
that would remain unimpounded. This is in paragraph number 2.
    It goes on to say, for flows of 20,000 cubic feet per 
second, the total drawdown below normal maximum pool levels 
would be approximately 150 feet at Lower Granite, 114 feet at 
Little Goose, 108 feet at Lower Monumental, and 97 feet at Ice 
Harbor.
    It goes on to say the permanent natural river option would 
remove the earthen embankment section at Lower Granite and 
Little Goose and form a channel around Lower Monumental and Ice 
Harbor Dams.
    Your report goes on to say, it would be necessary to 
develop an appropriate channel around the powerhouses, 
spillways and navigation locks and install protection measures 
at these remaining structures.
    Another report we pulled off the Internet, Section 7 of 
your Interim Status Report, indicates permanent natural river 
drawdown has the greatest estimated benefits for juvenile 
salmon in the lower Snake River, based on salmon passage model 
results, and elimination of reservoir and dam passage mortality 
once in operation.
    So it looks like a foregone conclusion. It would be 
completely--it would completely eliminate power production in 
the lower Snake River and commercial navigation between 
Lewiston, Idaho, and Pasco, Washington.
    And then finally, your recommendation here, the Corps' 
recommendation, is based on estimated biological benefits, 
other environmental effects and regional acceptance, the 
permanent natural river option is the only drawdown alternative 
recommended for further study.
    Gen. Griffin. Yes, ma'am. Well, of the drawdown options, it 
is the only one we would look at.
    Originally, when we started the study, we could go to a 
mid-level drawdown or spillway crest drawdown.
    So of the drawdown options, there is only one natural river 
option; current condition, you always look at; and the current 
condition with the surface bypass, which holds a lot of 
promise. I will echo what Mr. Stelle said, is for the good of 
the salmon, to the exclusion of hydropower and all other 
purposes, if we were just doing this for the salmon, probably 
the best thing is to remove the dams.
    Mrs. Chenoweth. Has the Congress authorized you to invest 
your time and energy and intelligence of this great Corps of 
Engineers to even investigate this? Have they funded it?
    Gen. Griffin. Yes, ma'am. We are funded to do the study to 
execute part of the biological opinion.
    Mrs. Chenoweth. I don't think so.
    Gen. Griffin. That is just one----
    Mrs. Chenoweth. This is something we are working on.
    Gen. Griffin. I will say that of the drawdown options, the 
mid drawdown or spillway crest, the impacts far exceed the 
benefits. And we all agree to that.
    And so in our recon report, or interim report, we looked at 
a number of options, and now as we go into the feasibility 
report, we eliminated all but these three options, which is 
natural river drawdown, with no intermediate look, because the 
benefits and costs are just simply not worth the benefits to 
the fish, the cost to the system, and therefore we are looking 
at one drawdown option and that's natural river, and then the 
current condition, and the improved condition, which would be 
surface bypass, gas abatement measures, and other measures that 
would make the system more fish friendly.
    Mrs. Chenoweth. You are looking at, according to Section 5 
of your Interim Status Report at drawdowns at four dams that I 
just mentioned, right? Not just one?
    Gen. Griffin. Yes, ma'am. It would be all four.
    Mrs. Chenoweth. In fact, in the testimony that you didn't 
read, the very last sentence, ``Preliminary returns from the 
1995 groups, which should be viewed with great caution at this 
time, show transported fish returning at nearly twice the rate 
of in-river fish.''
    That seems to contradict your oral testimony, and I wanted 
to give you a chance to explain that.
    Mr. Stelle. My apologies. I hope that I was in fact 
intending to say just that.
    The returns that we have now from the larger transportation 
evaluation begun in 1995, we've got that year class, about 30 
per-

cent of those fish are back now, we expect about 70 percent 
will come back next year. And that's why you have to be 
cautious about drawing any conclusions.
    But basically, we're getting I think as of last week, the 
reading was about a 2.6 to one transport benefit for wild fish 
and about 1.9 to one for hatchery fish.
    So it pencils out to at least a two to one benefit for 
transportation. That is what I was intending to say. Thank you. 
I apologize for being obscure.
    Mrs. Chenoweth. Mr. Stelle, you have also testified, or 
indicated on page 3 of your written testimony that you are 
formulating as a third part of your strategy, in order to 
refine analytical tools available for estimating results that 
you can expect,----
    Mr. Stelle. Yes, ma'am.
    Mrs. Chenoweth. You have put together a working group 
called the Plan for Analysing and Testing Hypothesis, otherwise 
known as PATH.
    Mr. Stelle. Yes. You are welcome to join, if you want, but 
I advise against it.
    Mrs. Chenoweth. No. I would like to.
    Mr. Stelle. Yes, ma'am.
    Mrs. Chenoweth. This process includes the best analytical 
minds the region has to offer. It is ably and independently 
facilitated to ensure objectivity and improve effectiveness and 
objectivity.
    How is this financed?
    Mr. Stelle. Bonneville Power. May I explain a little bit--
--
    Mrs. Chenoweth. Sure.
    Mr. Stelle. [continuing] what this group is trying to do?
    Mrs. Chenoweth. While you explain, let me just finish my 
question.
    Mr. Stelle. Yes, ma'am.
    Mrs. Chenoweth. I would like to know what the peer review 
process is, who is on the peer review panel that will be 
appointed by you and the Northwest Power Planning Council, and 
who is on the independent scientific advisory board appointed 
by you. All right?
    Mr. Stelle. Yes. Basically, this group has two principal 
functions. We will over the next, over the past couple years 
and over the next 3 years, as I mentioned, generate some very 
powerful information that adds to the suite of hard data we 
have on what happens to fish in this system.
    The difficulty with that is that that data will describe 
what happened to fish under a certain set of environmental 
conditions over the years that the data was generated. But it 
will probably not represent the full range of environmental 
conditions that these populations will experience over time.
    So we take that hard data on what did happen, but then we 
need to develop the ability to project what will happen under a 
broader suite of environmental conditions.
    And one of the fundamental objectives of this group is to 
develop a scientifically sound modeling system to be able to 
give us those projections of what will happen over time. And by 
over time, I mean over 25, 50 and a hundred year period, in 
order to better en-

able the region to answer the question under each particular 
option, what do we project will be the outcomes for the fish as 
well as for others.
    Mrs. Chenoweth. So the peer review process is simply 
reviewing the work.
    Mr. Stelle. Yes.
    Mrs. Chenoweth. And not the decisions.
    Mr. Stelle. No, ma'am. The peer review process is intended 
to allow people who weren't involved in developing the model 
and the projections, and who are not sort of bought into it and 
who are highly credible scientists, to take a look and say, 
does this hold up, does it hold water, does it make sense.
    Mrs. Chenoweth. Mr. Chairman, I just have one more 
question, if I might ask your indulgence.
    Mr. Doolittle. Sure.
    Mrs. Chenoweth. Now, you operate, and the river apparently 
is being governed by the biological opinion that the National 
Marine Fisheries Service issued in 1995, correct?
    Mr. Stelle. Technically, it's being governed by the Record 
of Decision of the Army Corps of Engineers and the Bureau of 
Reclamation, which was based on the recommendation by NMFS. 
But, yes.
    Mrs. Chenoweth. But you do go on to say in your testimony 
on page 6 that with regards to the potential benefits of 
drawdown, and you are talking here about the John Day 
drawdown----
    Mr. Stelle. Yes, ma'am.
    Mrs. Chenoweth. You go on to say that these potential 
additional benefits would be expected to approve to species 
other than the listed Snake River Chinook and Sockeye is that 
are the basis of the NMFS opinion, and then you go on to say, 
they are also dependent upon a drawdown much deeper to natural 
river bed than the near-term drawdown to the minimum operating 
pool required by the biological opinion.
    So the study, the natural river drawdown, even exceeds your 
own biological opinion, is that not correct?
    Mr. Stelle. The issue goes to, as I understand, goes to 
what type of drawdown appears to make the most sense to take a 
look at, and what stocks of fish are most likely to benefit 
from either of those options.
    The 1995 biological opinion in an effort to remain 
consistent with the plan of the Northwest Power Planning 
Council did recommend to the Corps a MOP operation at John Day 
if appropriate mitigation measures were made for the irrigators 
pulling water out of the John Day pool. That has not occurred.
    Subsequent to that recommendation, the Federal, state and 
tribal fishery agencies, looking further at that, and based on 
the information of the Return to the River report, decided to 
recommend to the Corps that it suspend further specific 
evaluation of that MOP operation because it was too marginal, 
and that it look at the two more significant drawdown options, 
namely, spillway crest, or natural river.
    That was I believe as close to a consensus recommendation 
to the Corps as I am aware of here, that it didn't make much 
sense to put a lot of effort into the little incremental 
benefits of a MOP. If you are going to do this, look at either 
spillway crest or natural river.
    Mr. Doolittle. Mr. Crapo?
    Mr. Crapo. Thank you, Mr. Chairman.
    Mr. Stelle, I'm going to come back to you, but hopefully 
just briefly, and I just wanted to wrap up the question that I 
was asking on flow augmentation a minute ago. Maybe I could get 
to what I was seeking in this way.
    Under the status quo, we have flow augmentation coming from 
Dworshak and Brownlee and the upper Snake, basically.
    The 427,000 acre-foot figure from the upper Snake I guess 
you could call status quo.
    If we were to look to a year-round natural river option, 
would the flow augmentation require it be higher or lower than 
status quo, in your opinion?
    Mr. Stelle. As a general matter, and I want to be careful 
here, Congressman, to not go beyond what I know, as a general 
matter I think that the need for flow augmentation is, as a 
general matter, decreased where you have a natural river option 
and a run of the river habitat.
    Mr. Crapo. I understand. And the reverse question would be, 
if we went instead to the improved transportation system 
approach, would, in general, the need for flow augmentation be 
increased or decreased?
    Mr. Stelle. Unless the--If the decision of the region was 
to maximize transportation 100 percent, and that we were able 
to collect all of the little fish and barge them around the 
system, then you could theoretically say you don't need good 
water in the river.
    I don't think we're going to be there, and my expectation 
is that we will continue to try to improve in-river conditions, 
including good water for fish.
    Mr. Crapo. Thank you. And I want to go to you with one more 
question, but Gen. Griffin, I am going to come to you on this 
issue, as well. So you could be prepared.
    Gen. Griffin. Yes.
    Mr. Crapo. You indicate in your answers to my first round 
of questions that the surface collection devices did not pre-
determine whether we would be putting fish, once they were past 
the dams, in-river or in the river or in the barges.
    There are those who have indicated that from what they can 
see, the development of the surface collection devices are 
indeed being designed to benefit the transportation system 
rather than leaving the choice open.
    And I know Gen. Griffin is going to have an opportunity to 
answer this. But could you tell me that the efforts to collect, 
identify ways to get fish past the dams is not being 
manipulated or managed in a way to bias the decision there one 
way or the other?
    Mr. Stelle. My understanding, Congressman, is that the 
surface collective prototype that is being currently installed 
and being improved at Lower Granite, the upper dam, is 
specifically designed to shunt fish into the bypass system, 
which in turn can enable you to send them over the spillway or 
send them into the barges and the bypass system, one way or the 
other.
    So it's designed to leave open both options.
    Mr. Crapo. Gen. Griffin, do you want to respond to that?
    Gen. Griffin. Sir, I would say it is a two-part exercise.
    The first exercise is with surface collection, if you can 
collect the majority of the fish, and be successful there, that 
is one part of the exercise, then you check them.
    And then you have a second decision, you can either put 
them back in the river, allowing easy bypass through of the 
dam, or you can put them in a barge. So you collect them, and 
then what you do with them after that is the best decision of 
do you barge or do you do in-river transportation.
    Mr. Crapo. Are any funds being expended in other areas, 
other than the surface collector funds, are any of the funds 
for improvement of the facilities or expansion of the 
facilities in the system being expended for in-river migration 
purposes or for increased transportation purposes?
    Gen. Griffin. Well, sir, we are expending funds to do 
extended length screens, and there again, it's to catch fish, 
and once you catch them, you check them, and then you can still 
barge them or put them back in the river.
    We are definitely spending money on extended length screens 
and we are also looking at gas abatement measures, which are 
the flip lips, and we are also doing a lot of work in that 
area.
    Mr. Crapo. All right. Thank you.
    Let me go into another area, and I am going to ask a 
question here which might be a little bit, a little fun at your 
expense, but I hope that you can understand, I'm talking to all 
of you, I'm hoping that you can understand where I'm coming 
from when I ask the question.
    The question is, who's in charge? And I think you can see 
where I'm coming from.
    Mr. Stelle?
    Mr. Stelle. I think I can answer that with a high degree of 
specificity, if the issue is who is operating the Federal 
hydropower system. Is that what you're asking? Who's in charge 
of the Federal hydropower system?
    U.S. Army Corps of Engineers.
    Mr. Crapo. I thought that would be the answer for that part 
of it.
    Who is in charge of the decision regarding salmon and 
steelhead recovery issues?
    Mr. Stelle. Insofar as it relates to recommending to, for 
instance, the Corps of Engineers how to operate the system, for 
salmon restoration, National Marine Fisheries Service is 
responsible for formulating those recommendations. And there is 
a presumption that the Corps will adhere to those 
recommendations.
    Mr. Crapo. OK. And who's in charge of, I assume that the 
General's going to claim there is one, who's in charge of flood 
control?
    Gen. Griffin. Nobody wants that but me, sir.
    Mr. Crapo. OK. So if I am concerned about a decision that's 
being made on how the system is being operated for power 
production, and I go to you, General, and can you tell me that 
the buck stops at your desk?
    Gen. Griffin. On power production, sir, we have--Well, it's 
a fairly complicated system.
    Mr. Crapo. I thought it would be.
    Gen. Griffin. We have meetings every week where we balance 
the multi-purpose project purposes which are navigation, fish 
and wildlife, which is the salmon recovery, and hydropower; 
those are the big three, but also we're trying to take care of 
irrigation.
    All of that is balanced in the Division. And we do this 
week to week, in a weekly TMT, technical management team that 
meets, and decides these things.
    And so, you know, in fact we're the ones who are making 
those decisions.
    Mr. Crapo. Does anybody else want to jump in and claim a 
piece of this?
    Mr. Robertson. I guess I will. I just will put it this way: 
The Federal Columbia River power system is run both by the 
Corps of Engineers and by the Bureau of Reclamation, depending 
on which dam is involved.
    The system is being integrated across four states and an 
International boundary. Bonneville has responsibility, once the 
environmental sideboards, once the flood control sideboards are 
put on the river. In other words, we meet biological opinion 
objectives, we meet flood control objectives and so on, then 
Bonneville has an obligation to try to integrate the river to 
its most beneficial use.
    So once those sideboards are put on, we integrate across 
Federal Corps and Bureau responsibilities and NMFS 
responsibilities and try to maximize the river's values.
    Mr. Crapo. But to give you an example of what I am driving 
at here, I understand the answers that have been given with 
regard to the hydropower system, the answers that have been 
given with regard to the Endangered Species Act and so forth 
and with regard to power management, but it seems to me that 
those issues are very integrally tied together, and the 
decision regarding hydropower impacts the fish, and a decision 
regarding fish impacts the hydropower, and that one of the 
problems we have in the system, we've got the Northwest Power 
Planning Council, we've got the states, the Tribes, the Corps 
of Engineers, the BPA, NMFS, and I haven't listed others.
    One of the problems we have is that we never seem to know 
where the buck stops. And I asked the General earlier this week 
in a private conversation, when you get to 1999, and you issue 
the decision that will be made at that point in time, what if 
NMFS disagrees with your decision? And I think the point is, we 
have a problem here, don't we?
    Gen. Griffin. Well, sir, in our conversation, we talked 
about coming to an agreement, because there will be an 
Administration position. Even if we disagree at our level, I 
believe I said that with the Administration, we will come up 
with a position, because that's who we work for. And then that 
decision will be, or that recommendation will be made to the 
Congress, who then will either authorize and appropriate money, 
or not.
    Mr. Crapo. OK. I know my time is up, so please be quick, 
Mr. Stelle, if you want to respond to that.
    Mr. Stelle. I will be very quick. Any long time salmon 
restoration strategy, if it is going to be successful, has to 
be implemented, and if it's going to get implemented, it will 
only get implemented if it has the support of the Pacific 
Northwest. And I think we fully recognize that.
    The Tribes have to be a part of it. The states have to be a 
part it. The regional leadership has to be a part of a decision 
on what the long-term vision is for the Columbia and Snake 
River systems.
    So this is not--this is not and will not be some simplistic 
decisionmaking behind closed doors. This will be an entirely 
public, open process, and in my view, the tribal leadership and 
the state leadership must be involved in making choices with 
the Administration on where we go for the long-term.
    Mr. Crapo. Thank you. Mr. Chairman, could I ask one 
followup question on that point? I can't resist.
    Mr. Doolittle. Certainly.
    Mr. Crapo. Mr. Stelle, I understand what you just said.
    The fact, however, is, and I understand your earlier answer 
that NMFS is basically the controlling agency with regard to 
the fish and wildlife issues, Endangered Species Act, and so 
forth.
    The fact is, the state of Montana is not happy with the way 
NMFS is handling this and has moved out of that process, and so 
have a number of the Tribes. In the testimony today, from the 
Governor of the state of Idaho, there was serious disagreement 
and dissatisfaction expressed with the way that NMFS is 
managing that process.
    I have some concerns myself, not only there, but with 
regard to other areas in dealing with NMFS and some of the 
other Federal agencies in terms of managing other environmental 
issues.
    I guess the question I have is, is NMFS, in this case, 
properly, is NMFS truly and in good faith approaching the issue 
of bringing everybody together for a collaborative decision, or 
is that something where we are just inviting people to the 
table and then making other decisions and moving ahead with it?
    Mr. Stelle. Absolutely the former. Absolutely the former. 
The entire array of activities that we and the other Federal 
agencies are undertaking to implement the salmon recovery 
program are completely open and participatory.
    Decisions get changed, issues get reshaped because of the 
participation of the tribal and state members. We have 
distributed to the Federal, the Federal Government has 
distributed to the states and the Tribes in this region a set 
of proposals on how to improve that inter-governmental 
machinery. And if the Tribes or the states have ideas on how to 
make it better, we are all ears. I think that a volunteer 
invitational effort is essential here.
    Mr. Crapo. Thank you. I see that I have done away with my 
time.
    Gen. Griffin. Sir, if I may indulge, one comment I need to 
leave you with, the way the Corps operates this system, there 
is an operating plan and there are rule curves, depending upon 
flows, and all of this has been worked out.
    I didn't want to leave the impression that this system is 
operated in a capricious manner. But that there are very strict 
rules of engagement, if you will, these operating plans, that 
have been worked out for all the multi-purpose projects, so 
that navigation, flood control, hydropower all are balanced.
    Sort of like raising kids, you never want to say one is 
more important than the other, and this operating plan, then, 
is how we do our business.
    And so there are rules that folks understand that we can't 
vary the levels more on a certain day than are required by 
these curves.
    Mr. Crapo. Thank you. And thank you for your indulgence, 
Mr. Chairman.
    Mr. Doolittle. Gen. Griffin, your testimony states that, 
quote, what cannot be determined with high confidence at this 
point is the expected increased survival for both juveniles and 
adults out of the Snake River from the permanent lower Snake 
drawdown, and what contribution this would make to the overall 
salmon recovery effort, end of quote.
    You then go on to say that the analysis and national 
feasibility study, meaning their 1999 report, right, should 
provide additional information but not a definitive answer.
    And my question to you is, are you really saying that we're 
kind of playing tag at these dams, ending power production and 
commercial navigation, devastating this region, when all we 
will have at that time is something less than a definitive 
answer?
    Gen. Griffin. Well, sir, on that issue there, the amount of 
information we're gaining now is exponentially increased by 
some of the surveys and these pit tags that we have and radio 
controls, transmitters that we are able to put into fish.
    The information that we are gathering now is so much better 
than 2 years ago. That's why Mr. Stelle is able to say with a 
great degree of confidence, our returns out of the barges now 
is two to one over what we are putting in the river because of 
these tags we are able to put into fish.
    But, sir, I will tell you, I believe that in 2 years, we 
are going to lean very heavily on the National Marine Fisheries 
Service and the PATH team that we discussed to determine the 
best benefits that removal of the dams would give.
    But our belief is, sir, I don't think you will ever say 
absolutely what's going to happen with the fish if anybody says 
that, I don't know how they could say that. We will have the 
best science, we will put up the best science we can for the 
benefits, versus the cost.
    The costs, sir, are very easy, relative to determining the 
benefits, the economic impacts will be easier to determine than 
the benefits. And that is what the study does. It lays out the 
costs and the benefits to the best of our ability.
    Mr. Doolittle. What Mr. Stelle is talking about is 
developing a model, making projections. In other words, it 
won't be based on the hard evidence. It will be based on what 
evidence there is, best available data, which by the way is bad 
data, as to what it may be in the future and projecting it out 
he said even to a hundred years.
    I mean, this is highly speculative, is it not?
    Mr. Stelle. Two things, Mr. Chairman. First of all, I think 
some of the hard data that the General is referencing is not 
speculative at all. It's as solid as a rock.
    Having said that, again, those data will have been 
generated over the environmental conditions which we have--will 
have experienced in a 10 or 20 year period.
    We are talking long-term salmonid restoration for this 
system over time, and we will therefore necessarily have to 
develop a better ability to project. You will not have all the 
answers and you will not have all of the data governing all of 
the conditions.
    So you use both the hard information you have, which may be 
very high quality information, and your best ability to project 
and extrapolate from that hard data. It's an absolutely 
conventional scientific process.
    Mr. Doolittle. Gentlemen, taking off your hats, as these 
important officials that you are, and just being citizens, and 
thinking this through, does it trouble you that you would 
devastate a community in order to attempt to improve the 
population of salmon? Does that bother you at all? That you put 
agriculture out of business, commercial navigation and so forth 
out of business, just on the belief that you're going to do 
something to improve the fishery?
    I am troubled by that. I would like to know if that bothers 
you, just as citizens of this great country. Or is the goal so 
worthwhile that it doesn't matter what the cost is?
    I mean, Bonneville Power is going to lose, it looks like, 
almost 45 percent of its power generation, if I understood your 
testimony right, if they do John Day and these four Snake River 
dams. Is that right?
    Mr. Robertson. About 25 percent.
    Mr. Doolittle. 25 percent. All right. You are already 10 to 
20 percent over market value in your power prices, and then you 
are going to take a 25 percent hit here, as well as the cost of 
mothballing.
    That can't improve your competitive position vis-a-vis the 
other areas.
    And certainly we buy your power down in California. I 
assume we will have a harder time doing that if these ideas go 
through.
    All right. Let's hear your answer.
    Mr. Stelle. I would like to go back to what I think Mrs. 
Chenoweth spoke to earlier in her opening statement.
    I don't think anybody is proposing that these are black and 
white, either/or propositions. Nor do I think that the issue 
before the Pacific Northwest is do you want agriculture or do 
you want salmon restoration.
    I am utterly convinced that we can and should have both. 
And the issue fundamentally for the region, I believe, is what 
are our best options to secure those long-term goals. It is not 
either agriculture or salmon. It has to be both. And it can be 
both.
    Mr. Doolittle. And by the way, I know Mr. Stelle, you've 
got to leave to make that plane. So, please go when that time 
comes--and that may by here right now.
    Mr. Stelle. That was about 10 minutes ago.
    Thank you, Mr. Chairman, thank you members of the panel.
    Mr. Doolittle. If there is anyone else that has that 
pressure, we will just have to let you go, too. Thank you.
    Well, Mr. Stelle indicated that we've got to have both, but 
if you do the natural drawdown, we're not going to have both, 
as I understand it. We're not going to have power generated 
from these mothballed facilities, and we are not going to have 
commercial navigation.
    If you told me that we are going to shut down the Port of 
Sacramento or the Port of Stockton, which are similar to this 
one, only a lot closer to the ocean than this one is, that 
would be absolutely unthinkable and intolerable, and anyone who 
suggested it would be totally rejected.
    But apparently it's being seriously considered here. So let 
me have your reaction, General.
    Gen. Griffin. The data we come up with must be biologically 
sound to come up with a recommendation to mitigate whatever 
costs there are for tearing out the dams. You know, if it is a 
billion or 2 billion, if the benefits do not outweigh the 
costs, then we're not going to recommend that you go to natural 
river conditions.
    Mr. Doolittle. How could the benefits possibly outweigh the 
cost?
    Gen. Griffin. Sir, that's what the study is going to 
determine.
    Mr. Doolittle. It doesn't take a study for me to know the 
answer to that. Why does it take a study for us to know the 
answer to that?
    It says right here, based on estimated biological benefits 
cost, other environmental effects, and regional acceptance, the 
permanent national river option is the only drawdown 
alternative recommended for further study.
    Now, I recognize that was your choice of the three 
drawdowns. But, this seems to be capturing people's 
imagination, developing a life of its own. I mean, there are 
other proposals, according to your testimony, for dealing with 
this than a drawdown.
    Gen. Griffin. Absolutely. Sir, there are three alternatives 
that we are looking at. Current condition, current condition 
with improvement, which is the surface bypass and other things 
that may get you to where you want to be, where you can recover 
these endangered stocks.
    If that does it, then that's going to be the cheaper 
alternative and that will be the recommendation. I mean, so I'm 
sorry that happened, but I do understand the confusion.
    Of the drawdown options that we were looking at, the sole 
option to be looking at of the three that we are looking at is 
natural river drawdown.
    Mr. Doolittle. I didn't get an answer from you. Mr. Stelle 
gave me an opinion about this. Give me your opinion as a 
citizen. You are in the middle of all of this mess with all of 
these regulations, you see how absurd this situation is. What's 
your impression as a citizen? I mean, how do you feel about 
this?
    Gen. Griffin. Sir, if we are to recover these endangered 
species, I don't know that you necessarily can say that you 
only do it for 500 million or a billion or two billion. That's 
something that the region is going to have to decide as we go 
through this.
    Mr. Doolittle. If they get a chance, although the 
Endangered Species Act doesn't allow taking into account 
economic impact. So the sky's the limit. Tear down all the 
dams, restore it to the way it was before Columbus landed. And 
in the opinion of many, apparently who have influence in this 
area, that is where they would like to get. That is not where I 
would like to get. Yes, sir?
    Mr. Penney. Mr. Chairman, I guess back to the earlier 
question from Congressman Crapo, regarding where the buck 
stops, I think the Federal Government, the Tribes and the 
states need to work more effectively, and that's why I stated 
in my opening comment, the Federal departments, bureaus, they 
are all under the umbrella of the Federal Government.
    Where we have a lot of problems is when some of the laws 
state that there will be consultation with the Tribes, which 
there is from time to time, but yet our input is not seriously 
considered in the end product. That is where we have a lot of 
the problems.
    To answer your question, as Chairman of our Tribe and as an 
individual tribal member, I think it is important to the tribe, 
and I think the honor and integrity of the U.S. Government is 
at stake, because they reserved that fishing right for the 
Tribes, and it is very important to the Tribe, we would expect 
the United States to uphold their obligation and trust 
responsibilities to the tribes.
    Mr. Doolittle. I wish time permitted to further go on, but 
we have two more panels, a total of seven witnesses, and we are 
trying to be done in an hour.
    So unless my colleagues feel extremely--and of course it is 
up to you, you are entitled to ask more questions, because I am 
on a third round. But we may end up staying here longer.
    Mr. Crapo. No more questions for me.
    Mrs. Chenoweth. Mr. Chairman, I just have one.
    Mr. Doolittle. OK.
    Mrs. Chenoweth. I just have one of the General.
    In your testimony, General, on page 2, you do list those 
three options that you were talking to the Chairman about.
    Gen. Griffin. Yes.
    Mrs. Chenoweth. But you do admit that on page 2 of your 
testimony, the first two options are no longer an option, and 
you deal only with the third option, which is the permanent 
natural river drawdown. So----
    Gen. Griffin. I would----
    Mrs. Chenoweth. I will read your statement to you.
    Gen. Griffin. Actually, I have it.
    Mrs. Chenoweth. Your statement says it was determined that 
further study of mid-level drawdowns, which was the first 
option, was not warranted since extensive fish passage system 
and other dam modification would be needed at a cost of over $1 
billion in 10 years' time, and evaluations indicate that salmon 
survival would not be as high as undercurrent conditions.
    Now, your second option, further study of seasonal natural 
river drawdown was dropped due to the high cost and 
considerable detrimental environmental and cultural impacts.
    Then the next section in your testimony goes to impacts of 
natural river drawdowns as at the Corps of Engineers.
    So this whole testimony, or what you have presented to me, 
plus the studies that I presented, only deal with the one 
option that you're looking at.
    Gen. Griffin. No, ma'am. We are dealing with three options, 
and it's in there.
    We are dealing with current condition, current condition 
with improvements, and the natural river options. You're right, 
we have taken out the mid-river option, it is too expensive for 
the benefits to the salmon, so we are no longer studying that 
option.
    But of the options, the last option of three that we're 
looking at, because of the feasibility study we are looking at; 
current conditions, current conditions with improvement, and 
drawdown to natural river. We've thrown out the other two 
drawdowns of the river and the only option, if you are going to 
draw down the river at all, is to take it all the way down, or 
don't study it.
    Mrs. Chenoweth. Thank you.
    Mr. Doolittle. OK. Thank you, gentlemen. We appreciate your 
perseverance here and the information you have provided.
    There may be additional supplementary questions we will 
tender in writing and would ask you to respond expeditiously. 
The hearing record would be left open for that purpose.
    We will excuse the first panel, and invite panel No. 2 to 
come up.
    Mrs. Chenoweth. Mr. Chairman, we have a guest in the 
audience; between panels, I would like to introduce him.
    Mr. Doolittle. Certainly.
    Mrs. Chenoweth. He is a special friend of the three of us, 
and he is here also in Lewiston, Idaho; he is our top gun--I 
think many of you remember the movie Top Gun, and in part, this 
movie was made on the life story and the heroics of one Duke 
Cunningham in Vietnam--and we are privileged to serve with 
Congressman Cunningham, and he is in the audience. I'd like for 
you to stand, Congressman, and just give away, there is our top 
gun.
    Mr. Doolittle. We are pleased to welcome you here to Idaho. 
Great that you could join us.
    We have as members of our second panel: Mr. Bruce Lovelin, 
Executive Director, Columbia River Alliance; Mr. Sherl L. 
Chapman, Executive Director, Idaho Water Users Association; and 
Dr. W. G. Nelson, Director of Public Affairs, Idaho Farm Bureau 
Federation.
    Would you gentlemen please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Doolittle. Thank you. Let the record reflect that each 
answered in the affirmative.
    We are now under the gun for time, so we will try to ask 
witnesses and members, and including the Chairman, to live 
within the 5 minutes. The lights explain when you are getting 
near the end. The yellow light is the beginning of the fifth 
minute.
    And with that, Mr. Lovelin, we would welcome you, sir.

  STATEMENT OF BRUCE J. LOVELIN, EXECUTIVE DIRECTOR, COLUMBIA 
                         RIVER ALLIANCE

    Mr. Lovelin. Thank you, Mr. Chairman, Mrs. Chenoweth, and 
Mr. Crapo. I do appreciate the opportunity to be here today.
    I have provided testimony and I would plan at this point, 
because of the need to abbreviate the testimony to speak about 
a few elements of my testimony.
    First off, our group is the Columbia River Alliance. We 
came together as multi-users of the Columbia and Snake River 
system.
    We represent agriculture, both irrigation and dry land 
farming, navigation, forest products, manufacturing and 
community organizations.
    We come together with a real strong belief that we can help 
and save these Northwest salmon, especially the Snake River 
endan-

gered salmon, while at the same time maintaining this multi-use 
river system.
    I think that, deviating a little bit from my testimony, it 
is interesting, Mr. Chairman, that a little more than 5 years 
ago, and I'm not sure if you were here during that, but I am 
sure Mrs. Chenoweth was, in March 1992, this community saw and 
felt the effects of a drawdown. We did a test. We wanted to see 
if it could be done, and it was a physical test.
    We drew down the Lower Granite reservoir for about a 
month's period, and we decided to look at certain things, how 
much bank was going to be exposed, and what kind of effects.
    Well, it was only supposed to be a physical test. And the 
reason for it, and the reason why they did it in March, Mr. 
Chairman, is because they didn't want any juvenile fish moving 
down the river system or adult fish moving up the river system, 
because they were concerned about the negative effects to those 
fish.
    But what was interesting during that is that we did see 
some effects, some biological effects. We found dead resident 
fish throughout the system. The National Marine Fisheries 
Service estimated between 10,000 and 30,000 resident fish were 
dead from that 1-month drawdown test.
    It disrupted the ecosystem, the ecosystem that apparently 
we are willing to put aside over some attempts to help the 
salmon.
    In addition, though, it created an economic black cloud, 
black cloud of uncertainty over this community. And, again, 
Mrs. Chenoweth I am sure well knows, being from this community, 
that everyone was very, very concerned about that.
    Unfortunately, Mr. Chairman, that economic black cloud is 
still here. It's expanded over other parts of Idaho.
    Another part of the district in Orofino, Idaho, Dworshak 
Reservoir, is drawn down 80 feet almost every year to help the 
salmon.
    We cannot get the National Marine Fisheries Service to tell 
us what are the benefits of that drawdown from the Dworshak 
Reservoir or what is the benefits of the 427,000 acre-feet that 
the upper Snake irrigators are providing.
    The thing that's most frustrating with all of this is that 
we have the most expensive environmental restoration program 
going on in the history of the Endangered Species Act, paid for 
by Northwest citizens, and it's almost like, from the Federal 
Government's perspective, this is not real money.
    But it is real money. It is our money. And it's our 
economic growth potential that is really at stake right now.
    Now, the National Marine Fisheries Service has basically 
developed a single-dimensioned salmon plan, one that is focused 
on the dams. It's a money source, but they are focusing right 
on the dams. Peripheral to that is of impact to irrigators, to 
navigation, to others. But it is focused on the dams. And here 
we are 5 years after the listing, and we still do not have a 
comprehensive salmon recovery in place yet, a plan which two 
independent science groups have said needs to address fishery 
management practices, the use of gill nets, the use of 
hatcheries, and it's very, very frustrating to us that we are 
focusing directly, and we still have this dam removal notion on 
the table.
    A few years ago it wasn't really talked about, but now it 
is being talked about relatively openly.
    Now, to my chart, which is the enclosure 3; I believe that 
we are at a crossroads, and I believe that the Pacific 
Northwest does not have what it takes to make the decision. And 
I believe also that the decision should be made now. And 
clearly, Mr. Chairman, from some of your comments, I think 
Congress can help us make that decision. We are at a 
crossroads.
    The center of that diagram is the Harza Northwest Report. 
They came out with a report last year which basically said that 
we are really, we should make a right-hand turn or a left-hand 
turn. It's either dam removal, or the other side, is to keep 
the dams in-place and improve the smolt transportation program.
    Now, Mr. Stelle did say something particularly interesting, 
which I need to emphasize, is that there's real time 
investigations of transportation of juvenile smolt, the 
benefits of those now, as compared to leaving them in the 
river.
    In 1995 there was a test, we marked fish, those adults that 
came back are coming back right now, they're being caught 30, 
40 miles downstream in a trap.
    What it's showing is 2.7 times as many wild fish are coming 
back that were transported than those left in the river. 170 
percent increase over the fish left in the river. And to me, 
that helps us decide which path we want to go down.
    Now, we can either wait until 1999, as the National Marine 
Fisheries Service wants us to do, or I believe that there is 
economic advantage for making the decisions now.
    Again, the ports in this area, they have an economic black 
cloud over them, economic development is important for them. 
Beyond that, the power system, the Bonneville Power 
Administration, utilities are looking elsewhere for power 
supply. This brings a great uncertainty to them.
    But I think through our Northwest congressional delegation 
support, through the support of the Congress, I think it's time 
that we do decide which fork in the road we are going to take, 
that we do it in 1997 instead of 1999.
    Thank you.
    [The prepared statement of Mr. Lovelin may be found at end 
of hearing.]
    Mr. Doolittle. Thank you. I had Mr. Chapman next, but is it 
your wish to have Dr. Nelson first?
    Mr. Nelson. No.

STATEMENT OF SHERL L. CHAPMAN, EXECUTIVE DIRECTOR, IDAHO WATER 
                    USERS ASSOCIATION, INC.

    Mr. Chapman. Chairman Doolittle, Congresswoman Chenoweth, 
Congressman Crapo, it is good to be here.
    You have my written testimony, and because of the time 
constraints and your constraints, I'll just talk about a couple 
of the points within my testimony that I think are most 
important.
    Mr. Lovelin referred to the Harza Report, and I think it is 
probably the best of the most recent reports that pull together 
what has been happening in the Columbia and Snake River system.
    One of the things that I drew from the report and the 
executive summary was that there is little quantification and 
little justification for the benefits of all of the proposed 
programs or suggestions for drawdown, for transport, for in-
river conditions, with regard to the fish.
    It's easy, as some other witnesses have talked about, to 
quantify the economic impacts, the damages, so to speak, if you 
impose drawdowns, if you impose flow augmentation.
    But little has been done to quantify what the real benefits 
to the fish are, if any.
    There is some speculation, a lot of speculation, with 
regard to what we get back for what we give up. And I'm not so 
sure that the people in this region and in the West are willing 
to give up the recreation, the cheap power, the agricultural 
community, for the kind of benefits that are speculated on 
right now by the National Marine Fisheries Service and others.
    There are those that would suggest that we ought to just 
take drawdown off the table and not consider it any more. I 
think if we do that, we create perhaps more of a debate than 
exists now.
    There are ongoing studies, as you have heard about, for--or 
with regard to in-river survival. It is our understanding that 
those studies will be completed. And the Harza Report indicates 
that it's quite possible that in-river conditions, without 
drawdown, or with drawdown, either way, may be superior to some 
of the other systems. They seem, however, to put a lot of 
emphasis on the transportation system.
    As Mr. Lovelin pointed out, the preliminary results seem to 
indicate that transportation is probably going to be perhaps 
the saving grace for the salmon.
    We think that the options ought to be continued to be 
considered until we get good data. I'm a hydrologist and a 
geologist by profession so I lean toward science. However, I'm 
not a biologist. But I like to see the numbers. I like to see 
somebody quantify what the benefits are, if they are going to 
take away my livelihood.
    Mr. Stelle indicated that we can have agriculture and we 
can have salmon, too. I think implicit in that is we can have 
some agriculture and we can have some salmon.
    I think these kinds of issues get dehumanized. It's all 
well and good to talk about a reduction of 10 or 12 percent of 
your agricultural community as long as you are not in that 10 
or 12 percent. I think that's inappropriate at this time.
    The other issue that I'm deeply concerned about is 
augmentation. We talked about flow augmentation and whether or 
not that need or perceived need will stay or go away if we have 
drawdown or if we have barging.
    Mr. Stelle indicated that he felt that it would be reduced. 
In general, that's probably true, that the demand for water out 
of Idaho would be reduced if you implemented one or the other 
of these.
    But the problem is, that it's not reduced in the bad water 
years, it's not reduced in the 5-year droughts, as we have just 
experienced. And if it's not reduced then, what you do is you 
destroy the Idaho agricultural community.
    There was a study done several years ago with regard to 
acquiring water that was projected as being needed for the 
National Ma-

rine Fisheries Service plans. And just so you can have a yard 
stick to measure against, they use a figure of a million acre-
feet of water out of Idaho, out of the upper Snake River Basin 
from Idaho irrigation reservoirs.
    Now, keep in mind, we are already giving up 427,000 feet 
voluntarily until the year 1999, at which time our statute that 
authorizes that stops, and I see no sympathy in our state to 
renew that statute.
    The cost for that million acre-feet out of Idaho, in the 
low water years, was the drying up of somewhere between 444 and 
570,000 acres of irrigated land, a cost of about $500 to $600 
million per year in lost revenue to our economy, and the loss 
of about 10 to 14,000 jobs in our state.
    We can't tolerate that. And we certainly couldn't tolerate 
that if you also destroy the Port of Lewiston and their 
industrial community.
    We don't think that that's appropriate. We don't believe 
that the government has the numbers to justify that kind of 
sacrifice, or even a request for that kind of sacrifice. Let 
them study these issues, come back to us, and try and justify 
that.
    But we think that some of the suggestions right now are 
inappropriate. We think that they are trying to really recover 
the salmon at any sacrifice to the state of Idaho.
    We are the sacrificial lamb at this time.
    Thank you.
    [The prepared statement of Mr. Chapman may be found at end 
of hearing.]
    Mr. Doolittle. Thank you, sir.
    Dr. Nelson, you are recognized.

  STATEMENT OF W.G. NELSON, DIRECTOR OF PUBLIC AFFAIRS, IDAHO 
                     FARM BUREAU FEDERATION

    Dr. Nelson. Mr. Chairman, and Congressman Chenoweth, 
Congressman Crapo, we in the Farm Bureau are particularly 
pleased that you are here to listen to us and our concerns.
    Mr. Stelle, Mr. Lovelin said Mr. Stelle impressed him with 
some of the things that he said. One of the things that he did 
say that made me awfully nervous is in this flow augmentation, 
he wants good water. Good water for Idaho agriculture means our 
reservoir water. It means the lifeblood of Idaho. And while I'm 
impressed to have him call it good water, we know where it 
comes from. I'm going to go home being considerably more 
nervous than when I arrived here.
    The Idaho Farm Bureau policy is very clear and precise on 
this issue. We believe all water in Idaho should be used 
beneficially. We support the following salmon recovery 
alternatives. Physically modify the dams rather than tearing 
them down and lowering the water levels, and improve barging, 
such as net barging and transportation.
    The rest of the--of our philosophy I have outlined in my 
testimony, so I won't go into those.
    I have a few points that I want to make, though. 
Agriculture is concerned with the drawdown proposals. All plans 
are solely focused on fish, with no consideration for the 
effects of such drawdowns on humans or economic activity in the 
entire region. Each plan has a variety of scientists, 
environmentalists, and fish enthusiasts supporting the plan. 
But the science is really piecemeal, the speculation is really 
rampant, and the rhetoric confusing to anyone who really is 
trying to get to the bottom of this and find out which plan 
will be most effective.
    Approximately 70 percent of the suitable habitat for salmon 
is found in our state, indicating we've done pretty well at 
preserving fish habitat.
    Every plan we have reviewed includes a more normative 
river, whatever that is, so that juvenile salmon can migrate to 
the sea more quickly. There is considerable disagreement as to 
which strategy will be effective in bringing back the numbers 
which once made up the Columbia/Snake salmon fishery. No study 
has been done to assess the other ecological impacts of 
returning this permanently modified area to a non-reservoir 
status.
    We feel breaching the dams and tampering with the John Day 
pool guarantees the termination of the inland waterway and will 
destroy Idaho's only seaport, the Port of Lewiston. As an 
inland shipping state, Idaho needs the Port to remain 
competitive. Pacific Northwest exports 90 percent of its wheat. 
200 million bushels of grain move through the port per year 
with a value of over $859 million. About 54 percent of the 
Idaho production moves through this inland waterway and the 
lower barge rates at less than one-half the cost of rail and 
one-third the cost of truck transportation, directly helps 
farmers.
    Idaho exports of wheat and barley total $350 million per 
year and ending barging certainly would jeopardize a large 
portion of these exports.
    If the barge traffic would be transferred to truck and rail 
transportation, as some suggest, the environmental impacts 
would be enormous. A 470 percent increase in emissions from 
rail and a 709 percent increase in emissions from trucks.
    To meet the flow requirements, Idaho prominently figures in 
balancing the water needs of fish. This water will come at the 
expense of agriculture, recreation and other users. Idaho 
agriculture is the key to Idaho's economy and provides between 
25 to 30 percent of our state's economy in any given year. This 
segment of the Idaho economy generates about $3.5 billion and 
we feel these drawdowns will put that entire agricultural 
production in jeopardy.
    Breaching the four lower Snake dams and lowering the John 
Day pool will have a serious affect on our electric generation 
in the Pacific Northwest. We firmly believe that breaching the 
dams and lowering the John Day pool will cost the the 
Bonneville Power a full 10 percent of its revenues; with the 
current demands on dollars in the power system, the cost just 
about guarantees a failure of Bonneville Power, which would 
have to be bailed out by Congress. In addition, it increases 
the chances of massive power outages, large increases in food 
prices, and economic repercussions in about every segment of 
Idaho business and economy.
    We guarantee no amount of fishermen coming to drop a hook 
in Idaho waters will begin to offset the economic chaos that 
the breach of the four dams will bring to our state.
    We in the Farm Bureau believe that removing the dams is the 
most costly proposal being advanced for the recovery of salmon. 
We feel eliminating barging and breaching the dams produces the 
lowest survival rate of the smolt that we have studied. The 66 
percent smolt survival rate of the dam removal scheme does not 
take into account the effect of increases in adult travel times 
to travel the river.
    We do not believe the speculation in the plan and are 
convinced that if it's implemented it will have a disastrous 
effect on irrigated agriculture, Idaho economy, electric 
generation, Bonneville Power, and will lead to the need of 
large treasury bailouts to sustain the plan.
    We are convinced that this plan will cost over three-
quarters of a billion dollars per year and guarantees nothing 
to the fish, to the States or to the Tribes. And if the plan 
includes lowering the John Day pool, it will surely lead to 
floods in both Portland and Vancouver.
    With that, I would conclude my testimony, and I thank you 
very much for the opportunity to come and discuss it.
    [The prepared statement of Dr. Nelson may be found at end 
of hearing.]
    Mr. Doolittle. Thank you. Let me ask the three of you, Mr. 
Stelle acknowledged the clear benefits to salmon that barging 
provides, and yet nevertheless indicated that in-river fish 
passage was superior in the long run.
    So, in your opinion, do you think there's a bias in the 
scientific community that is going to drive their decision 
toward permanent drawdowns?
    Mr. Chapman. Mr. Chairman, I'll take the first crack at it 
and let Mr. Lovelin have at me afterwards.
    I have to believe that the way the debate has been 
structured, for the most part in the past, that there is a 
press at least toward moving toward in-river conditions; toward 
a restoration of a natural river. That's the philosophy of many 
people in the scientific community.
    I won't go so far as to say that many of them are anti-dam. 
But I do know some people within that community personally, and 
they have that philosophy.
    There seems to be, to me, a bias in the biological 
community that we ought to get back as close as we can to the 
natural conditions to recover the natural fishery. That may be 
the case.
    But it's our position, as I think much of the public in the 
Pacific Northwest, is that we're not, probably not willing to 
give up what it would require to go back a hundred years.
    I think once the people understand what the benefits are, 
what they have to give up, the decision will be clear.
    Mr. Lovelin. Mr. Chairman, I agree with Mr. Chapman.
    I would say that Mr. Stelle is in a real tough spot. The 
honeymoon's almost over for him. He's come out to the 
Northwest, and now Northwesterners, they want more salmon. And 
he's been unable to deliver.
    And I think that we're going to start seeing, yes, 
something in front of him which is hard, hard science, 
suggesting that barging does work, despite our improvements on 
the river system, barging does work, and it works actually 
quite well.
    And so he's been walking this tightrope, this political 
tightrope of one-half, or part of the Northwest, the vocal part 
of the Northwest saying, let's leave the fish in the river, 
let's remove the dams, and the other half saying, let's try to 
manage within the system we have, and if it works, let's 
enhance upon that.
    And so ultimately the National Marine Fisheries Service is 
going to be called upon to deliver. And I think to some extent, 
that's why Mr. Stelle revised the state of Idaho's attempts to 
leave more fish in the river in this particular year, and put 
more in barges.
    Mr. Nelson. Mr. Chairman, I agree. I think that the science 
that they are basing this on is in a continuous state of flux.
    I really think they are finding that barging is pretty 
effective. But when the smolt actually reach the Columbia--the 
ocean estuary--what the food source is there at that time is 
more of a determining factor on whether they are going to 
survive or not.
    And so if they were to use the barging and fine tune the 
science a little bit more as to when they should arrive and 
when they should barge and get the time sequence down, I think 
they would find that's very effective. And this bias for just 
knocking out dams would go away.
    Mr. Doolittle. I'd like to ask you other questions, but I 
think I'm going to recognize Mrs. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mr. Lovelin, I wanted to start out with you. Mr. Batt in 
his testimony claims that the Port of Lewiston is heavily 
subsidized. Do you agree that the Port of Lewiston is heavily 
subsidized?
    Mr. Lovelin. No, I do not.
    Mrs. Chenoweth. Would you care to elaborate on that?
    Mr. Lovelin. Yes. The Port of Lewiston is actually very 
much of a growing economic industry in itself. We had a tour of 
the facility yesterday. And the growth that they're having in 
both the container business and the grain export business has 
been just very astounding. From the recent Tri-Port Economic 
Impact Study that was just completed, suggests that businesses 
would lose about $35.6 million if we remove the transportation 
activities. There's also another $81 million of impact related 
to those tri-ports that would also be impacted by a river 
navigation drawdown.
    But relative to subsidies, though, no, it's not our belief 
that there are the subsidies that some of the dam removal 
advocates have been suggesting.
    Mrs. Chenoweth. Do you think that the economic interests 
give a fair consideration in the current salmon decisionmaking 
process as it now stands?
    Mr. Lovelin. No, ma'am. We're not. Simply we're kind of a 
third class citizen, I would call it that.
    I think you heard Mr. Stelle talk about the sovereigns. 
Well, we're not part of the sovereigns. That's the states, the 
Federal agencies and the tribal interests.
    The second class citizen has basically been the 
environmental interest. They have been allowed to go to court 
and to ask for judicial review of Endangered Species Act 
issues. Not until, what, a month or so ago with Bennett v. 
Spear, the Supreme Court decision, now we have that same 
ability.
    Unfortunately, we're just called upon to pay the price. And 
it is very, very frustrating for us because we know that it's 
our economic livelihood is on the line, and it's important for 
us to get these salmon recovered at the least cost possible.
    Mrs. Chenoweth. Could you explain for me on the record how 
and when the Federal agencies become sovereign?
    Mr. Lovelin. Self-decree, ma'am.
    Mrs. Chenoweth. I wanted to ask Sherl Chapman, you state in 
your testimony that flow augmentation may continue under the 
permanent drawdown option and gives us a good idea of the 
impact on Southern Idaho. Does there also continue to be 
impacts on the operation of the Dworshak within that framework?
    Mr. Chapman. Yes. I would anticipate that under any 
drawdown scenario, that the water that is required, whether 
really required or not, will come from the Southern Idaho 
reservoirs, the upper Snake River system, above Brownlee Dam.
    However, I don't see any willingness or assertions or even 
any suggestions by the Federal agencies that the pressure on 
Dworshak will be lessened or discontinued at all.
    Mrs. Chenoweth. I don't like to hear that.
    For Mr. Nelson, do you think that salmon harvest levels 
need to be regulated more closely? Salmon harvest levels maybe 
out in the ocean?
    Dr. Nelson. Absolutely. I think, from all that I can read, 
and certainly I'm not a fisheries expert, but the temperature 
of the ocean and the catch in the ocean has a vital impact on 
what returns to Idaho.
    If it was only our river, we wouldn't be the only--we'd be 
the only place in the upper--well, on the West Coast that would 
be experiencing this factor of diminishing returns. But most of 
the rivers have experienced this. And many of them don't even 
have dams. So I think that the harvest and the conditions in 
the ocean are extremely critical to their survival.
    Mrs. Chenoweth. And finally, Mr. Nelson, in the closing 
paragraphs of your testimony, your written testimony, you made 
reference to the Bevan plan. Is this plan being seriously 
considered by any of the Federal agencies at this time? And 
why? What is it about the Bevan plan that your organization 
prefers?
    Dr. Nelson. Representative Chenoweth, we feel that any plan 
that we've looked at that is strictly like what is being 
advanced now, one-dimensional, cannot work, and is the most 
costly. The Bevan plan actually retains the multiple uses, 
doesn't call for destroying Idaho. As near as we can tell, you 
can recover the salmon and also retain some economy in the 
area. And of course that would be the kind of plan that we 
would recommend and endorse.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you. Mr. Crapo is recognized.
    Mr. Crapo. Thank you, Mr. Chairman.
    Mr. Chapman, currently--I'm going to followup the line of 
questioning that I went through with the earlier panel with 
regard to flow augmentation.
    Currently we basically see Dworshak providing about 1.2 
million acre-feet, Brownlee about 240,000 acre-feet of water, 
and the upper Snake about 427,000 acre-feet. That's status quo. 
Could you give me your opinion as to what the relative impacts 
on that demand for flow augmentation will be under the 
competing approaching for the salmon recovery that we are 
looking at?
    And I'm talking about the natural river option, or drawdown 
approach, versus the current system with improvements in 
transportation and improvements in fish passage.
    Mr. Chapman. Based on the history, we have seen various 
proposals and plans that have been suggested in the past that 
range from the status quo of about a million out of Dworshak 
and then 600,000-plus out of the upper Snake River Basin, to as 
much as 1.9 million acre-feet of water out of the upper Snake 
River Basin, in addition to anything that was taken out of 
Dworshak.
    Mr. Crapo. Which would be about four-and-a-half times as 
much water?
    Mr. Chapman. Yes, sir. And the impact is fairly arithmetic. 
It's a straight line impact for some distance up above the 
million acre-feet, and I don't recall where the break point is, 
but as I recall, at about a million and three-quarters acre-
feet of water taken out of the Basin above Brownlee and Hells 
Canyon, then you essentially take all of the water. The eight 
million acre-feet of water that we have in the Snake River 
Basin.
    And so you eliminate agriculture. You just destroy it.
    Mr. Crapo. And under which approach?
    Mr. Chapman. This would be the full flow augmentation 
approach with the existing reservoirs in place. That was the 
most draconian of the plans that we had seen in the past, and 
they dropped down to somewhere in the neighborhood of the 
427,000 acre-feet, which we've agreed to produce during the 
NMFS experiment that's going on until 1999.
    Mr. Crapo. And then what would happen if we went to a 
natural river flow?
    Mr. Chapman. We're not sure. As Mr. Stelle pointed out, 
generally he assumed that the request would lessen, or be less. 
To me, that means it may be something less than the one-and-a-
half to 2 million acre-feet we are sending down now.
    But the concern that I have is that we in Idaho, as you 
remember well, have recently gone through a 5-year drought. And 
in 1992 had NMFS demanded even a 427,000 acre-feet of water, we 
could not have provided it. All of our reservoirs were at rock 
bottom, and at that point in time we would have lost most of 
Idaho agriculture.
    Mr. Crapo. So it would be risky under that scenario.
    Mr. Chapman. It would be risky, even under the status quo.
    Mr. Crapo. Dr. Nelson, you picked up on the comment about 
good water that was made by Mr. Stelle. And to be honest, I am 
sorry that he had to leave, because I would like to talk to him 
about that, too.
    But do you have any idea what that concept might mean? I 
noticed that you picked up on it. I am wondering what concerns 
it raised in your mind.
    Mr. Nelson. I suspect, Congressman, that it's reservoir 
water that comes from the bottom that's colder than maybe 
natural flow water.
    Mr. Crapo. So you are talking a temperature issue, as 
opposed to the speed of the flow issue?
    Mr. Nelson. I think so. And I think our water quality in 
Idaho is pretty good. And this makes good water.
    Mr. Crapo. If the two of us are correct, surmising that 
that is what he was referring to, let's just make that 
assumption, whether that is what he meant or not, with regard 
to that issue, what does that say about flow augmentation under 
the various approaches? Do you know? Do any of you know what 
that holds, what implications that holds for the amount of flow 
augmentation that would be required under the natural drawdown 
or a natural river system, as opposed to the current system 
with the operational transportation?
    Mr. Nelson. We don't know. You know, if you take the 
natural flow in the spring, probably not much. But if we're 
going to talk about summer runs of Chinook, and try to get 
colder water and what have you, it may mean an awful lot of 
good water.
    So, we're concerned. We don't know for sure what that 
means.
    Mr. Crapo. Just one last question. I notice my time is 
about up, and I would like to ask if any of you who want to 
respond quickly, and this question is, as you will recall, my 
comments to Mr. Stelle earlier about my concerns with regard to 
the process, there are already those pulling out of the process 
because they are unhappy with it, and there has been an 
expression on this panel of not being heard, or being a third 
class participant in the process.
    Do you feel that the current process being operated 
basically by NMFS in this arena, is adequately bringing to the 
table all of the competing interests and letting them have a 
fair shot at having their interests represented, understood, 
and involved in the ultimate decisionmaking?
    Mr. Lovelin. No.
    Mr. Nelson. No.
    Mr. Crapo. All right. Thank you very much.
    Mr. Doolittle. OK. We thank you, gentlemen, for your 
appearance today. We will have further questions. Please 
respond to them expeditiously. We will keep the record open for 
that point. And we will excuse you. Thank you very much for 
your testimony.
    And we will call up our last, but not least, panel No. 3, 
why don't you gentlemen come up and remain standing. We will 
administer the oath here. As soon as you find out where you are 
sitting, if you would please raise your right hands.
    [Witnesses sworn.]
    Mr. Doolittle. Let me welcome to the panel Dr. James 
Anderson, Columbia Basin Research, University of Washington; 
Mr. M. Steven Eldrige, General Manager of Umatilla Electric 
Cooperative; Mr. Charles Ray, Wild Salmon Director, Idaho 
Rivers United; and Mr. Mitch Sanchotena, Executive Coordinator, 
Idaho Steelhead and Salmon Unlimited.
    Gentlemen, we're pleased to have you here, and I think you 
have heard the routine probably about the lights, and we will 
recognize Dr. Anderson for his testimony.

   STATEMENT OF JAMES J. ANDERSON, COLUMBIA BASIN RESEARCH, 
                    UNIVERSITY OF WASHINGTON

    Mr. Anderson. Thank you, Mr. Chairman. Mrs. Chenoweth, 
thank you, Mr. Crapo, thank you for inviting me to testify.
    In my written testimony I have detailed information on 
information related to what we are finding in the PATH process, 
of which I am a member, on survival of fish down the river.
    And some of the issues related to growth I've briefly 
addressed, and I've also briefly addressed some of the benefits 
we may gain by drawing down the reservoirs in terms of 
increased spawning area.
    But what I want to do, though, right now is discuss very 
briefly some of the elements that I have in this one sheet that 
I gave you. And basically what we're trying to do in PATH is 
ask, if drawdown will give us something better than what we now 
have in the river system. And some of these answers, first 
order answers, are actually quite simple to obtain, and we have 
made some definite progress, as Mr. Stelle has indicated.
    And I'd like to address these items, starting with item A. 
That we can make an estimate of what we will have with 
drawdown. And it's in terms of juvenile survival for spring 
Chinook. And it's about 66 percent.
    We figure by comparison to other data, before we had the 
Snake River dams, there was about 90 percent survival through 
that part of the system. We know there's about 10 percent 
mortality in each dam. You put it all together. We would expect 
about 66 percent survival.
    Now, the question then is, is this better than what we have 
right now or is it worse? Because that would be one of those 
clear definitive things that we could say about the system. We 
also believe from the pit tag studies, there's about 43, 40 
percent survival, somewhere in that range, of fish going 
through the river.
    We also know, that's the example B which I show, example C 
is we have an estimate of what we get with transportation in 
terms of the survival of collecting fish, putting them in 
barges and dropping them below Bonneville Dam. We know there's 
almost a hundred percent survival in the process of 
transportation itself. And so the survival down below 
Bonneville is about 70 percent.
    If that was the issue, we would find--if that was the 
complete story, we would find no real need to draw down the 
reservoirs in terms of juvenile survival.
    The issue then is, is there some additional mortality going 
on after we release the fish from the barges. And we have been 
arguing that for a number of years. With particularly the 1995 
returns that comport very well with the survival studies, or 
the transport survival studies that we have done since 1968, we 
get more fish back in the barges than we do in the river.
    And it appears to the best of our knowledge that there is 
no additional delayed mortality in barging.
    So we might expect to find very high survival in the 
process of picking fish up and putting them in barges and 
letting them go through the river system. The fish have 
continued to decline, though, in the last few years. So if it's 
not in the barges, is there some mortality someplace else that 
might be affected by reservoir drawdown? And that's one of the 
things that we're starting to address in PATH.
    On the back page I have some of the issues that we're 
concerned with right now. And as we know, both climate and the 
hydro system have affected the fish over the last hundred 
years. And this is a diagram I put together, maybe you've seen 
this before, showing the catch in the Columbia River from the 
beginning of the century up to the present. Also with the step 
function right there showing the increase in generating 
capacity, showing, as the dams have been brought on, the stocks 
have gone down.
    Now, we also know from a lot of recent information that 
climate, particularly the wet and the dry cycles that have 
about a 20 year period to them, through those cycles, that they 
appear to have a great impact on the fish.
    And we know that in the early 1920's there was very high 
catch in the system and it was a very wet period, and there 
seemed to be a balance in the stocks for maintaining 
themselves. And about 1920 the weather shifted to a dry 
condition, the stocks started declining, and that was really 
about the time that we started the decline toward the ESA 
listings.
    But it's interesting to me that in the 1950's, when the 
system was being developed, hydro system, there was a very wet 
period, and I think that that mitigated the impacts of that 
development. Unfortunately, in 1977, the time that the Snake 
River dams were finished, the times we started transporting 
fish, the weather turned dry again and all those elements 
together made us think that there was a problem with the 
system.
    We now begin to think that maybe the transportation 
possibly was not the problem, but actually it was something 
which has kept the stocks from going extinct over the last few 
years.
    But the issue is not solved then by transportation. The 
real question that we need to address is what is the impact of 
the hydro system on the response of, particularly the Snake 
River fish, to the weather conditions. It's something that we 
will be addressing in the next few years.
    I think my final point would be that we are carrying these 
analyses out through this PATH process, which is not entirely 
unlike the rebellious British Parliament, I think. We go at the 
issues in a very rigorous fashion.
    And I think that we should be held accountable to review 
all of the hypotheses and keep everybody at the table until we 
come up with some very definite conclusions in terms of the 
probabilities and risk analysis that science can then offer to 
the decisionmakers.
    I will conclude my testimony with that.
    [The prepared statement of Mr. Anderson may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Mr. Eldrige, you are recognized.

   STATEMENT OF M. STEVEN ELDRIGE, GENERAL MANAGER, UMATILLA 
                      ELECTRIC COOPERATIVE

    Mr. Eldrige. Thank you. I would ask that you accept my 
written testimony into the record.
    Mr. Doolittle. Certainly.
    Mr. Eldrige. And many of the things that I was going to say 
have been touched on, so I will be as brief as I can.
    I would like to start out by mentioning that I'm unique on 
any of from people that you invited on the panel. Because I 
manage a private, independent business that happens to be owned 
by the people who we provide electricity to.
    Now, while people like me are beginning to feel a little 
threatened; it remains to be seen if we will actually be listed 
as endangered.
    When Bob Smith's staff called and asked me to speak, he 
asked if we would talk about the power impacts on energy supply 
and that kind of thing. So that is what I would like to do.
    I have been in the utility business for 25 years. I 
remember about 20 years ago when there was a huge distortion in 
the Northwest system, started by an outage in Montana, and 
before it was all over, most of the Bonneville Power system was 
out of power.
    And if you will remember, there was a major outage last 
summer, due to a number of different factors, but I believe 
generally due to a lack of capacity. Just as the outage that 
started in Montana years before, there was not enough 
generation available during an outage period to maintain load.
    I will guarantee you, and I will say it as strongly as I 
can, if we take 4,500 to 5,600 megawatts of capacity out of our 
generation pool, and unless we replace it, we will have huge 
reliability problems and stability problems. It's a guarantee. 
It's not a question. It's just how much and how bad.
    And the cost to replace hydro capacity has been way 
underestimated. It's not if it's going to cost more, it's order 
of magnitude of how much more.
    And the reason is this. The way the system operates right 
now is a hydro generator can be brought on line in a matter of 
minutes. A thermal plant takes hours to bring on line. So we 
have this enormous peaking capacity instantaneously to meet 
load.
    It makes economic these combustion turbine plants. You have 
maybe heard the term firm and non-firm energy. There is a vast 
amount of a kind of non-firm energy available. And it's the mix 
of the hydro system and the excess capacity and all of those 
kind of things that makes for the low-cost power.
    And everybody relies on the Federal hydropower system to 
make their energy more valuable.
    PacifiCorp in the Northwest is the single largest customer 
that Bonneville has. And they buy non-firm energy. And then 
through financial instruments and knowing the market, they sell 
that just like it was firm energy, and they make money on it.
    Now, if you replace this hydro generation with thermal 
plants, and have the same kind of reliability and capacity, 
you've got to have thermal plants running unloaded, spinning 
reserve, so that when something drops off unexpectedly, there 
is still generation there. That is going to raise costs.
    And the other thing is, those plants, those new thermal 
plants, because of where all our transmission plant is, have to 
be along the Columbia River.
    Now, just to give you an idea, Jack talked a little bit 
about the environmental consequences. Let me tell you how bad 
it really is.
    Now, these numbers I have a lot of confidence in, I can 
recreate them for you if you need me to, but they are from 
Bonneville's Business Plan Environmental Impact Statement, and 
the methodology we used is suggested by the EPA, and what you 
do is you take the emissions of the thermal plants and you make 
a carbon equivalent, and this is how the numbers come out.
    On an average energy basis these new plants will put out 
eight million metric tons of pollutants each year. If you 
replaced capacity, it's at a rate of 16 million metric tons of 
pollutants each year.
    You're going to see that in the air. That's like three 
million new cars driving 11,000 miles and at 20 miles a gallon. 
That's a lot of pollutant.
    Now, I'm not here to make a value judgment on the rightness 
or wrongness. But we must not underestimate the value from 
electric prices to the kind of reliability we like, and to the 
environmental cleanliness for air quality and other things, 
global warming, that we get from our hydro system. Costs will 
go up very significantly, I believe.
    That concludes my remarks.
    [The prepared statement of Mr. Eldrige may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Mr. Ray, you are recognized.

 STATEMENT OF CHARLES RAY, WILD SALMON DIRECTOR, IDAHO RIVERS 
                             UNITED

    Mr. Ray. Thank you, Mr. Chairman, Representative Chenoweth, 
Representative Crapo.
    I want to pick a couple items out of my written testimony 
that haven't been covered very much today, and I think they do 
need, in the investigation of this subcommittee, need to be 
covered thoroughly and repeatedly.
    The first one is subsidy. At the same time the Federal 
hydropower system was being developed, massive subsidies were 
being put into place. They have been well-identified. They 
include power rate discounts to irrigation, to the aluminum 
industry, to the Bureau of Reclamation, and foregone power 
sales due to irrigation water withdrawals, and the subsidy 
that's enjoyed by the navigation industry.
    These embedded subsidies have crippled the Bonneville Power 
Administration, they have placed an undeserved financial burden 
on the region's ratepayers and taxpayers, and they have shifted 
enormous debt on the backs of the fish and the economies that 
depend on healthy fish runs.
    I'm really surprised today that this subcommittee doesn't 
appear to be interested in taking a hard look, taking as hard a 
look at these massive subsidies that support some of the very 
industries represented here today, as this subcommittee appears 
to be interested in looking at whether there are real or 
imagined impacts from destroying these fish.
    I think if the facts were openly presented, there is a real 
question of whether the lower Snake dams are really worth the 
fleecing of the taxpayers and the ratepayers that's going hand 
in hand with the decline of salmon and steelhead.
    This subsidy issue is inseparable from the fish issue and 
it is inseparable from any study of economics. Fairness and 
good public policy demands as hard a look at the subsidies as 
the options to restore the fish are receiving.
    I really find it hard to believe that this Republican 
Congress, this subcommittee and the members of this 
subcommittee really want to perpetuate these massive public 
subsidies at the expense of ratepayers, taxpayers, good public 
policy, the fish, and the economies that depend on the fish.
    The second item I want to cover is honesty and promises. 
That's another issue that can't be separated from this issue. 
When this current system that we're talking about, the Federal 
hydropower navigation irrigation system, came into being, it 
came hand in hand with a whole bunch of promises. Some of them 
started a lot longer ago than that.
    In 1855 our government, represented by representatives and 
Congressmen today, made a promise to the Indian nations that 
those fish runs would be perpetuated. That promise was 
reaffirmed in U.S. v. Oregon, a landmark law decision in 1976.
    Each one of those Federal dams was authorized with the 
implicit promise that the fish runs would remain. In 1973 the 
Endangered Species Act promised that these fish would be 
preserved. 1976 the Northwest Snake River--lower Snake River 
Compensation Plan promised Idaho fishermen that the salmon 
would be there for them to catch. In 1980 the Northwest Power 
Act promised restoration of the fish.
    These promises haven't been kept. And I think this breech 
of trust is probably the biggest tragedy that has befallen this 
region and its citizens.
    The decline of these fish and the dependent economies and 
cultures is clear evidence of the failure of our government to 
honor and keep these repeated and clear and unambiguous 
promises. The citizens of this state, the region, and the 
nation, expect those promises to be kept. We're not going to 
forget about them and they're not going to go away.
    The public expects the return of the biological and 
cultural and economical benefits that could be enjoyed from 
restored salmon and steelhead runs. Restoration promised all 
the way back to 1855.
    It's far past time to correct the mistakes of the past, the 
lower Snake and Columbia River dams, and begin keeping those 
promises.
    I think it's very clear that the real challenge facing the 
Federal Government, the Federal agencies, the Congress, and 
this subcommittee is not to go out and hunt up all the reasons 
that we can't do what's necessary to keep the promises and 
restore the salmon and steelhead.
    The real challenge and what the public is looking for you 
to do is to recognize that it's time to keep the promises and 
to find the courage to do what it takes to restore these fish.
    Thank you.
    [The prepared statement of Mr. Ray may be found at end of 
hearing.]
    Mr. Doolittle. Thank you. Mr. Sanchotena, you are 
recognized.

  STATEMENT OF MITCH SANCHOTENA, EXECUTIVE COORDINATOR, IDAHO 
                 STEELHEAD AND SALMON UNLIMITED

    Mr. Sanchotena. Thank you, Mr. Chairman, Representative 
Chenoweth and Representative Crapo. It's been a long day.
    On behalf of Idaho Steelhead and Salmon Unlimited and our 
2000 members, we want to thank you, Chairman Doolittle, for 
coming to Idaho, and I want to compliment you on some of the 
questions I've heard you ask earlier. And if I may deviate from 
my testimony for a moment, I don't feel that they have been 
properly addressed.
    You asked a question, what is the Northwest Power Planning 
Council's plan? And Mike, you have said we ought to have 
regional control over this issue. The 1994 strategy for salmon 
from the four Governors of this region said something to the 
effect that, their recommendation is to decrease barging of 
anadromous juveniles and to leave significantly more than half 
of the fish in the river, drawdown of John Day by 1996, and a 
drawdown of the lower Snake by 1999.
    So that's the regional plan that this region has adopted. 
It has not been changed. I don't know whether the votes will be 
there to change it. We'll all be in that confrontation once 
again.
    You also asked another very good question, Mr. Chairman, 
and that was the question, as citizens, would we do what, one 
of the alternatives being on the table, is to breach the dams.
    And that question was asked by Greg Smith & Associates, and 
by the way, an ex-Senator of Idaho, he did a poll, and that 
poll confirmed 49 percent of the Idaho residents, and the 
question was asked, would you take out the dams to save salmon? 
49 percent of the respondents said yes. 47 percent were 
opposed. And 3 percent was undecided.
    So I think it was a very good question, and I am sorry they 
didn't give you that answer.
    Mike, you asked a really good question along the lines of 
Mr. Stelle, and it is unfortunate that he has not done his 
homework and looked into this, would drawdowns take more Idaho 
water.
    In 1992 an Army Corps of Engineers document--at that time 
we were doing, we had just finished Senator Hatfield's salmon 
summit, and we were looking at a spillway crest drawdown--that 
Corps document identified that the spillway crest, that the 
biological travel times of migrating juveniles from the lower 
Snake River could be met 96 out of 100 years, simply with in-
flow from the Salmon, in-flow from the Clearwater and normal 
power generation from Brownlee Reservoir.
    So it appears to me that if we go to natural river, which 
is below the spillway crest, it would alleviate any need for 
upper Snake River water.
    So I think those are awful good questions, and I appreciate 
you giving me the time to respond to them.
    One other thing I would urge the Committee to look into, I 
believe Mr. Chapman said that the 427,000 acre-feet of Idaho 
water taken during drought years impacted Idaho farmers.
    I would like to make it perfectly clear, look at the Bureau 
of Reclamation records, there was no irrigation water used, not 
one drop of Idaho irrigation water was used in the 427, it was 
Showdam water, it was Pocatello city water, and non-contracted.
    So it's unfortunate some of the things we have heard here 
along those lines. But I think it ties in well with what I have 
to say, in prepared testimony. And that is that Idaho sports 
fisherman were the first to fall victim to the completion of 
the four lower Snake River dams that were completed in 1975, 
and by 1978 Idaho's once productive general statewide Chinook 
salmon and fishing seasons had been closed and they have never 
reopened as a result of that.
    This is not about salmon, but it is also about wild 
steelhead, as well. Keep in mind that wild steelhead have never 
recovered since their simultaneous decline with Chinook salmon 
only 3 years after Lower Granite was built. In spite of the 
sport fishing closures since 1982 wild steelhead hang 
precariously near extinction and will possibly be listed for 
protection by the Endangered Species Act later this year.
    There are 25,000 steelhead fishermen in Idaho that 
contribute over $90 million annually to Idaho's economy, and if 
salmon were restored, that figure would go to in excess of $150 
million. That economy is seriously being threatened by the 
current operation of these dams.
    But Idaho fishermen are not the only victims of the dams. 
The list has been expanded and it has been expanded in your 
state, Chairman Doolittle. Fishermen from California to Alaska 
are now also victims. This year the Pacific Fisheries 
Management Council shut down salmon fishing off the coast of 
California to save a few Snake River fall Chinook. Idaho 
ranchers and water users are also, or soon will become, 
additional victims of these dams.
    It has become explicitly clear that these dams continue to 
kill so many salmon and steelhead this every wild spawner 
surviving to adulthood and making it back to Idaho is so 
valuable to perpetuation of this species that land use actions 
must be shaped to protect every one of the few that return.
    I have two recommendations for how this committee, in 
focusing on the lower Snake dams, can help restore Snake River 
steelhead and salmon, as required by law and treaty.
    My first recommendation concerns juvenile fish barging. For 
nearly 20 years, the primary steelhead and salmon management 
action undertaken at these dams have been the collection and 
artificial transportation of that fish in trucks and barges.
    For nearly 20 years this action has been a failure. 
Finally, now one scientific finding after another, along with 
some of the region's most noted scientists, are finally 
admitting what Idaho fishermen have known over a decade, 
Idaho's anadromous fish returns as adults in far greater 
numbers when as smolts they are able to ride a good spring 
freshet downstream to the ocean.
    No one is interested in preserving wild steelhead and 
salmon as museum pieces. Therefore, the Independent Scientific 
Advisory Board's peer review document, Return to the River, 
which states that a ``normative river system'' is needed to 
restore the runs must be the starting point for all 
discussions.
    Those of you who have read the document will recall that 
the recent authoritative ISAB report called for the use of 
barging only experimentally and instead to focus on in-river 
migration.
    Idaho Department of Fish and Game has very good 
documentation of this fact, and I would urge Idaho's 
Congressional leaders to rely more on the expertise of our own 
state's biologists for what is best for our anadromous fish 
resource.
    Also I believe it is important to note that Governor Batt, 
Senator Kempthorne, and Representative Crapo have now all 
joined ISSU in calling or the feds. to wean themselves away 
from barging.
    The administration currently plans to wait until 1999 to 
decide whether to focus our limited salmon and steelhead funds 
on returning fish to the river, or trying instead to improve 
fish barging. This delay will simply waste millions of dollars.
    The scientific verdict is in, and the Idaho verdict is in 
from Governor Batt.
    I urge this committee to recommend an immediate decision in 
favor of the in-river path and I urge you, Representative 
Chenoweth, to join Governor Batt, Senator Kempthorne and 
Representative Crapo in calling for an end to steelhead barging 
so we can get on with restoring these fish.
    Our second recommendation concerns the future of lower 
Snake dams themselves. What Idaho fishermen already knew is 
reaffirmed by Dr. Don Chapman. Before a Senate Subcommittee 
hearing chaired by Idaho Senator Kempthorne in Washington D.C., 
Dr. Chapman stated we will not go back to the way it once was. 
Even if we want to go back to the harvest of the 1950's, only 
45 years ago, there is only one way to do that, take out four 
Snake River dams and probably John Day, as well.
    Those of you who know Dr. Chapman know that he is 
recognized by many as one of the region's leading anadromous 
fish experts and in the past he has primarily represented 
Columbia River hydropower benefactors. Mr. Chapman's honesty in 
making this statement must be admired and respected. It also 
must be taken seriously.
    Dr. Chapman's statement along with the Independent 
Scientific Implementation Team's peer review document stating 
that a ``Normative River System'' is needed to restore the runs 
must be the starting point for many questions and subsequent 
decisions; i.e., to what point does society want to restore the 
runs and how much are they willing to pay. What are the 
societal, economic, and cultural values of restored runs? What 
are the assets and liabilities of the Four lower Snake River 
Dams and a drawdown of John Day?
    All these questions, plus several others must be asked, and 
their findings reviewed.
    Mr. Doolittle. Let me just ask you, we're over time.
    Mr. Sanchotena. Right. ISSU therefore requests that this 
committee request both the General Accounting Office and the 
Office of Management and Budget to conduct a thorough and 
unbiased audit of the assets and liabilities of the four lower 
Snake River dams and a spillway crest drawdown of John Day. We 
also request that until the results of that audit are made 
public, all further spending on these four dams which locks in 
the current failed management be suspended.
    Right now the Army Corps of Engineers plans to spend 
literally hundreds of millions of dollars in the next 5 years 
to gold plate these dams and lock in the current failed fish 
barging program. This committee can perform a real service to 
the taxpayers by urging that this spending cease until we 
decide as a region what the future of these dams should be.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sanchotena may be found at 
end of hearing.]
    Mr. Doolittle. Thank you.
    Well, Dr. Anderson, from your testimony, I gather, looking 
at these charts, particularly Exhibit 2, do you conclude, then, 
that clearly the presence of the dams on the river has resulted 
in a substantial decrease in the fisheries?
    Mr. Anderson. I think it has been a mixed bag. I think the 
dams have been detrimental to the fish in different periods of 
time.
    In all the work that we've done, that I've done, that NMFS 
has done, and the recent information suggests that we're doing 
better now with juvenile passage than any time in the past.
    Mr. Doolittle. So, what I find puzzling is, the graph you 
show us here clearly indicates that the juvenile transportation 
is working, and the survival is higher with it than without it. 
And yet there is intense opposition to it.
    Our last witness here indicated apparently the Governor of 
Idaho and the other Governors of this Northwest Council signed 
onto a report that calls for these drawdowns.
    Is that your understanding?
    Mr. Anderson. I'm not fully aware of all of the political 
agendas.
    I do know that Galileo had a similar problem, when he was 
saying that the earth revolved around the sun instead of the 
other way. And I think that eventually science, given a chance, 
will find its way to proper conclusions.
    Mr. Doolittle. Is science, in your opinion, being given a 
chance, or is it being replaced by pseudo science?
    Mr. Anderson. My feeling is that within the process of PATH 
and some of the formal analyses, which are very vigorous, that 
we will get to some of these conclusions. What I worry about is 
when scientists present hypotheses and then they are taken as 
proven facts. And I think the scientific process should be 
allowed to consider all of the hypotheses and then come to 
conclusions on it.
    Mr. Doolittle. And that is a traditional process, but 
indeed there are some within the scientific community who feel 
the issues cry out for resolution, that it's time to move away 
from judicial science and on to projecting hypotheses.
    Mr. Anderson. All we can do is state the numbers, look at 
the correlations and look at the ecological basis of things, 
and that's all we can do as scientists.
    Mr. Doolittle. I don't think you really got into it today, 
but I believe I've heard you testify before where you describe 
what appears to be an inverse relationship between the Alaskan 
salmon populations and those off the Pacific Northwest.
    Is that right?
    Mr. Anderson. That was 2 years ago, and there's been a 
considerable amount of extra, additional information that's 
been documented since then, some good reports out.
    Mr. Doolittle. And further validating----
    Mr. Anderson. Further validating this inverse relationship. 
Ecological theories are being developed and I think will be 
available at the end of this year to begin to test the 
mechanisms producing these decadal shifts in stocks.
    Mr. Doolittle. I wish our NMFS man was here, but he had to 
leave.
    What does he say when you present him with your studies on 
these things, particularly about the inverse relationship? How 
do they deal with that?
    Mr. Anderson. Well, the inverse relationship, which I 
presented a couple of years ago, was given to me by one of his 
employees. And so I just presented things that they have been 
understanding, and NMFS I believe, from my discussions with Mr. 
Stelle today, are moving forward to try to identify some of 
these hypotheses, and what types of research we need to do to 
further articulate where things are happening, where the 
mortality is occurring, and if there's anything that we can do 
about them.
    Mr. Doolittle. Well, you have developed some other things 
here. But if that hypothesis were indeed correct, as what data 
you have would seem to indicate, even if you did tear down all 
of the dams, there wouldn't necessarily be a restoration of the 
traditional salmon run.
    Is that correct?
    Mr. Anderson. The weather is always going to be a factor. 
And there's a difference between tearing out the entire 
Columbia River hydro system and tearing out part of the dams.
    Mr. Doolittle. Namely, the four they are talking about 
here.
    Mr. Anderson. And the simple, straight forward analysis 
that we have done so far, is that we are not going to gain the 
benefits we now have just by taking out the upper Snake dams, 
or the Snake dams. That is the initial conclusion. We will 
consider this in greater detail, and hopefully we will have the 
information to you in time to make decisions.
    Mr. Doolittle. And that's the lower Snake dams you are 
talking about?
    Mr. Anderson. The lower Snake dams.
    Mr. Doolittle. OK. I would like to ask some more questions, 
but it is Mrs. Chenoweth's turn.
    Mrs. Chenoweth. That's all right.
    Mr. Doolittle. Well, do we have time for that? Why don't 
you go ahead.
    Mrs. Chenoweth. I yield to you.
    Mr. Doolittle. Well, all right.
    Gentlemen, how do you react to his graphs and then the 
testimony he had about the correlation between the wet--low 
population salmon runs with the warm and dry years and higher 
population runs with cool and wet years?
    Mr. Sanchotena. Well, first I think we need to recognize 
that these weather patterns have been cycling for a millennium. 
They have come and gone. We have had wet and dry periods, and 
yet we have never had anadromous fish in the Snake River on the 
brink of extinction until four dams were completed in the lower 
Snake.
    Second, I would like to point out, we have heard a lot 
today from Mr. Stelle and Mr. Anderson and others about in-
river.
    But keep in mind, in-river is not normative river. In-river 
today is likened almost to pouring these fish down, pardon a 
pun, down a toilet bowl.
    We have an overworked river that the Federal Government by 
its own admission is admitting is lethal to juvenile fish. We 
have to take them out of the river to give them any chance of 
survival.
    So if we go to where the Independent Scientific Survival 
Board is, we are making a fish friendly river, and that in-
river migration that we are talking about at that point changes 
drastically from a river by the Federal Government's own 
admission, the Army Corps of Engineers, says we must take these 
fish out.
    Second, the pit tag information I think is very immature, 
in fact this year's run is likened to the 1993 returns of adult 
salmon. That return was 30 percent wild fish component in the 
run. This year it was only 16 percent wild fish in the run, 
they listed species.
    So in essence we will not even replace our 1993 population, 
and we go further toward extinction.
    So I wouldn't buy into a lot right now on this pit tagging 
stuff. The PATH process, we have a lot of confidence in. We 
will track it and we would urge the Committee to track it. And 
let's see where this takes us as we get further down the road. 
But there's some real bogeymen hiding around here that I don't 
think we should right now base any information on what we've 
got and take it to the bank, that it would be a good 
investment.
    Mr. Doolittle. Mr. Eldrige, did you want to comment?
    Mr. Eldrige. Well, what I guess I would say is I think we 
need to decide, are we really going to do this, no matter what 
the science says. Are we really going to tear apart the system?
    If we are really going to do that, well, then let's start 
down that path.
    If we're really not going to do it, the studies, the pit 
tags, all of this other stuff, spending millions and millions 
of dollars on that, you know, everybody knows it's going to 
cost a lot of money, everybody knows it's a question mark, but 
if we're really not going to go to natural river, I think we 
need to say so and get on with some other things so that we can 
make it as best as we can.
    If we are really going to do it, then, fine.
    But I begin to feel a little like, you know, if you're 
going to be bled out, it doesn't really matter if it's a vein 
or an artery, but let's get going on it.
    Mr. Sanchotena. Mr. Chairman, I would like to add to that, 
I think Mr. Eldrige has a very good point. I think this really 
is a societal, economic issue. I hate to see us continue to 
argument about science. I really believe the science for the 
most part is in or nearly in.
    Mr. Doolittle. Is what? I'm sorry.
    Mr. Anderson. Is in or nearly in. So many scientific 
reports.
    Mr. Doolittle. It is such a fundamental thing--is barging 
good or not? You are in disagreement here.
    I mean, his graph shows that it works, and yet you are 
saying apparently no one has corroborated your statement, but 
they haven't disputed it either, that the Governors of this 
region have all signed off on eliminating barging.
    Mr. Ray. If you would, Mr. Chairman, we have been barging 
fish for over 20 years, and NMFS, National Marine Fisheries 
Service, and the Corps of Engineers, up until about 4 years 
ago, caught every single fish they could catch, and put them in 
the barges.
    Now, in that 20 year period of time that we have been 
barging nearly every single fish we could catch, the Idaho 
salmon season is closed, statewide season never to reopen, 
Idaho coho salmon were declared extinct in 1987, we had one 
Sockeye salmon come back last year, and in 1994 and 1995 we had 
consecutive record low returns of spring and summer Chinook, 
steelhead are now petitioned for ESA listing, returns, 
regardless of what returns of the barged fish to the dams do, 
returns of wild fish to the spawning ground, the true measure 
of the efficacy of barging, have consistently been low.
    And for anybody to say that in the face of that 
indisputable evidence that barging works, I don't understand 
it.
    Mr. Doolittle. And I'm going to wrap up with this 
observation, that Dr. Anderson's testimony about the dry, warm 
years would account, as well, for a lot of that decline.
    With that, let me recognize Mrs. Chenoweth, if you have 
further questions. Yes, you do. You are recognized.
    Mrs. Chenoweth. Mr. Chairman, I noticed, and I called 
attention to Mr. Stelle's testimony, that preliminary returns 
through 1995, which should be viewed with great caution at this 
time, said, showed transported fish returning at nearly twice 
the rate of in-river fish.
    And so I join the Chairman in showing a certain amount of 
concern, because transported fish are returning at twice the 
rate, Mr. Stelle said.
    So I just was hoping that we could have a consistent path 
here.
    Mr. Sanchotena, you referred to Greg Smith's survey.
    Mr. Sanchotena. Excuse me. Was I supposed to respond to 
that comment? I do have a response to that.
    Mrs. Chenoweth. Well, go ahead, please.
    Mr. Sanchotena. As you said----
    Mrs. Chenoweth. Make it real short. I didn't anticipate 
that.
    Mr. Ray. There is no data on the return of 1990 fish, there 
is zero data, not a single data in at this time on return of 
1995 out migrants, wild fish to the spawning grounds, not a 
single data figure.
    Mrs. Chenoweth. Wild fish.
    Mr. Ray. Wild fish. The ESA listed fish, the fish that are 
driving this entire process, not hatchery fish, not steelhead, 
ESA listed wild fish.
    Mrs. Chenoweth. Mr. Ray, I think the way the salmon was 
listed was by gene pool makeup, not whether they were wild or 
hatchery fish. And I think you know that, and I know you know 
that.
    Mr. Ray. I don't know that.
    Mrs. Chenoweth. Now, Mr. Sanchotena, with regards to the 
Greg Smith survey, I think that survey question that you 
indicated read, would you be in favor of removing the dams to 
save the salmon?
    Mr. Sanchotena. I believe that's the way it was referenced 
in the media.
    Mrs. Chenoweth. All right. I think that Mr. Smith's survey 
read, would you be in favor of removing a dam to save the 
salmon.
    Mr. Sanchotena. I believe it was one or more, was the way 
it was worded.
    Mrs. Chenoweth. All right. Would you do me a favor, and 
would you please present us, send as an addendum to this 
hearing the actual questions? I would appreciate that very 
much.
    And with that, due to the shortness of time, I want to 
thank all of the panel members here for their testimony, very, 
very valuable.
    And, Mr. Eldrige, I would like to speak to you in person, 
or maybe you can supplement the record, with a comparison, not 
only to gas fired turbine alternatives, but also to nuclear 
power, because I think we are seriously looking at that.
    Thank you.
    Mr. Doolittle. Mr. Crapo is recognized.
    Mr. Crapo. Thank you, Mr. Chairman, and I realize that we 
are almost an hour over, if I see the time right, and I know 
there is meetings we are supposed to be at, and I will just ask 
one question quick and I will forego my other questions.
    But each of the members of the panel, and probably to Mr. 
Eldrige, Mr. Ray and Mr. Sanchotena, because you represent 
groups in the region, rather than a research perspective, my 
concern about the process, I'd like to just very quickly have 
you respond to, do you believe that the current process in 
which we are currently operating allows you to effectively 
present your information and you feel that you are part of the 
table, that your concerns are being taken into consideration, 
and that you have an opportunity to influence the outcome of 
the decisionmaking in a way that is satisfactory to you?
    Mr. Sanchotena. No.
    Mr. Ray. No.
    Mr. Eldrige. No. And it is not collaborative either.
    Mr. Crapo. OK. I just wanted to be sure I let everybody who 
testified have a chance to get in n that. I won't ask any more 
questions, Mr. Chairman.
    Mr. Doolittle. Thank you. I would like to thank of the 
witnesses for your testimony. And we would like to keep the 
record open. We may have some additional questions that we 
would like to submit to you.
    Mr. Ray, I'll just observe that I'm not, and this 
subcommittee really isn't big on subsidies. We had three major 
GAO reports about PMAs and cost of recovery, talking about how 
we get there.
    So I would just share with you, that I'm fairly anti-
subsidy.
    Mr. Ray. Well, I appreciate that. And I think that the 
subsidy issue definitely demands, just as hard a look and just 
as intense of scrutiny as any other item within this issue that 
has received today.
    Mr. Doolittle. Thank you.
    Mr. Ray. I hope you can stay on track.
    Mr. Doolittle. We certainly intend to do so.
    With that, we will--oh. Mr. Eldrige.
    Mr. Eldrige. Just real quickly, do you know what the 
unsubsidized cost of a fishing license is?
    Mr. Doolittle. OK. Thank you. We will excuse this panel, 
and the hearing is adjourned.
    [Whereupon, at 6:30 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Arthur M. Taylor, Chairman, Fish, Water, and Wildlife 
           Subcommittee, Nez Perce Tribal Executive Committee

    My name is Arthur M. Taylor, I am a member of the Nez Perce 
Tribe. Also, I am a member of the Nez Perce Tribal Executive 
Committee and the Chairman of the Fish, Water, and Wildlife 
Subcommittee. It is with the utmost respect and honor that I am 
allowed to submit written testimony on behalf of my people. 
From time immemorial, the Nez Perce People have utilized the 
fish, water, animals, and medicinal plants which have been 
produced by the Columbia River. All living creatures which have 
been created by the Creator are considered sacred to the Nez 
Perce People. It is simply for this reason during the 
springtime, we honor these gifts which have been bestowed upon 
the Nez Perce. We honor the return of the first salmon back to 
the river, as well as, honoring the first roots and berries in 
special ceremonies. The Nez Perce People are proud of their 
heritage in the Pacific Northwest and in particular our 
heritage along the Columbia River.
    With the importance the Native Americans have played in 
helping restore the salmon population back to the Columbia 
River, the four Columbia River Tribes should have been invited 
to participate and give testimony to the Water and Power 
Subcommittee. The four (the Nez Perce Tribe, the Confederated 
Tribes of the Umatilla Indian Reservation, the Yakama Indian 
Nation, and the Confederated Tribes of the Warm Springs) 
Columbia River tribes have treaty reserved rights on the 
Columbia River and should be consulted when making decisions 
regarding our reserved rights. Government to Government 
consultation is necessary when making decisions concerning 
sovereign governments.
    For the past several years, many federal agencies have 
completed several studies on the Columbia River. This would 
include the barging of salmon through the dams, using ``flip'' 
gates as a means of allowing fish to pass through the dam 
efficiently, in effect less mortality, and have set up programs 
to limit the predation upon the juvenile salmon while passing 
through the pool of each dam. These programs have blatantly 
failed and we are no closer to restoring the salmon back into 
the Columbia River Basin than we were several years ago; this 
has led to more species being listed as an Endangered Species 
or have the potential of being listed in the very near future. 
There are many factors which must be considered when restoring 
salmon back to the Columbia River Basin: the water temperature 
of the John Day Pool, the dissolved gas issues, the quality of 
the water, and above all else, the quantity or flow of the 
water. The flow of the water is extremely important for the 
migration of juvenile salmon on their way to ocean. Anadromous 
fish utilize the flow of the water in order to determine the 
direction of the ocean, however, man has taken away the flow of 
water, whereby the migrating juvenile salmon are left to 
predation.
    In order to restore the salmon back to the Columbia River 
Basin, we need to restore the natural river flow back to the 
Columbia River, which in essence would lower the temperature of 
the John Day Pool making the habitat more sustainable for the 
salmon. This issue should not be an issue solely for the 
``irrigators'' who utilize the water for their personal 
benefit, but for the entire northwest. Restoring salmon back to 
the Columbia River Basin would help to restore the economy and 
make the Pacific Northwest once again known for it's natural 
resources again. The Nez Perce Tribe deserves to be recognized 
as a sovereign government because we have inherent rights which 
are protected by Treaty, therefore, we should not be considered 
the ``general public'' such as all of these water user 
coalitions.

[GRAPHIC] [TIFF OMITTED] T4131.001

[GRAPHIC] [TIFF OMITTED] T4131.002

[GRAPHIC] [TIFF OMITTED] T4131.003

[GRAPHIC] [TIFF OMITTED] T4131.004

[GRAPHIC] [TIFF OMITTED] T4131.005

[GRAPHIC] [TIFF OMITTED] T4131.006

[GRAPHIC] [TIFF OMITTED] T4131.007

[GRAPHIC] [TIFF OMITTED] T4131.008

[GRAPHIC] [TIFF OMITTED] T4131.009

[GRAPHIC] [TIFF OMITTED] T4131.010

[GRAPHIC] [TIFF OMITTED] T4131.011

[GRAPHIC] [TIFF OMITTED] T4131.012

[GRAPHIC] [TIFF OMITTED] T4131.013

[GRAPHIC] [TIFF OMITTED] T4131.014

[GRAPHIC] [TIFF OMITTED] T4131.015

[GRAPHIC] [TIFF OMITTED] T4131.016

[GRAPHIC] [TIFF OMITTED] T4131.017

[GRAPHIC] [TIFF OMITTED] T4131.018

[GRAPHIC] [TIFF OMITTED] T4131.019

[GRAPHIC] [TIFF OMITTED] T4131.020

[GRAPHIC] [TIFF OMITTED] T4131.021

[GRAPHIC] [TIFF OMITTED] T4131.022

[GRAPHIC] [TIFF OMITTED] T4131.023

[GRAPHIC] [TIFF OMITTED] T4131.024

[GRAPHIC] [TIFF OMITTED] T4131.025

[GRAPHIC] [TIFF OMITTED] T4131.026

[GRAPHIC] [TIFF OMITTED] T4131.027

[GRAPHIC] [TIFF OMITTED] T4131.028

[GRAPHIC] [TIFF OMITTED] T4131.029

[GRAPHIC] [TIFF OMITTED] T4131.030

[GRAPHIC] [TIFF OMITTED] T4131.031

[GRAPHIC] [TIFF OMITTED] T4131.032

[GRAPHIC] [TIFF OMITTED] T4131.033

[GRAPHIC] [TIFF OMITTED] T4131.034

[GRAPHIC] [TIFF OMITTED] T4131.035

[GRAPHIC] [TIFF OMITTED] T4131.036

[GRAPHIC] [TIFF OMITTED] T4131.037

[GRAPHIC] [TIFF OMITTED] T4131.038

[GRAPHIC] [TIFF OMITTED] T4131.039

[GRAPHIC] [TIFF OMITTED] T4131.040

[GRAPHIC] [TIFF OMITTED] T4131.041

[GRAPHIC] [TIFF OMITTED] T4131.042

[GRAPHIC] [TIFF OMITTED] T4131.043

[GRAPHIC] [TIFF OMITTED] T4131.044

[GRAPHIC] [TIFF OMITTED] T4131.045

[GRAPHIC] [TIFF OMITTED] T4131.046

[GRAPHIC] [TIFF OMITTED] T4131.047

[GRAPHIC] [TIFF OMITTED] T4131.048

[GRAPHIC] [TIFF OMITTED] T4131.049

[GRAPHIC] [TIFF OMITTED] T4131.050

[GRAPHIC] [TIFF OMITTED] T4131.051

[GRAPHIC] [TIFF OMITTED] T4131.052

[GRAPHIC] [TIFF OMITTED] T4131.053

[GRAPHIC] [TIFF OMITTED] T4131.054

[GRAPHIC] [TIFF OMITTED] T4131.055

[GRAPHIC] [TIFF OMITTED] T4131.056

[GRAPHIC] [TIFF OMITTED] T4131.057

[GRAPHIC] [TIFF OMITTED] T4131.058

[GRAPHIC] [TIFF OMITTED] T4131.059

[GRAPHIC] [TIFF OMITTED] T4131.060

[GRAPHIC] [TIFF OMITTED] T4131.061

[GRAPHIC] [TIFF OMITTED] T4131.062

[GRAPHIC] [TIFF OMITTED] T4131.063

[GRAPHIC] [TIFF OMITTED] T4131.064

[GRAPHIC] [TIFF OMITTED] T4131.065

[GRAPHIC] [TIFF OMITTED] T4131.066

[GRAPHIC] [TIFF OMITTED] T4131.067

[GRAPHIC] [TIFF OMITTED] T4131.068

[GRAPHIC] [TIFF OMITTED] T4131.069

[GRAPHIC] [TIFF OMITTED] T4131.070

[GRAPHIC] [TIFF OMITTED] T4131.071

[GRAPHIC] [TIFF OMITTED] T4131.072

[GRAPHIC] [TIFF OMITTED] T4131.073

[GRAPHIC] [TIFF OMITTED] T4131.074

[GRAPHIC] [TIFF OMITTED] T4131.075

[GRAPHIC] [TIFF OMITTED] T4131.076

[GRAPHIC] [TIFF OMITTED] T4131.077

[GRAPHIC] [TIFF OMITTED] T4131.078

[GRAPHIC] [TIFF OMITTED] T4131.079

[GRAPHIC] [TIFF OMITTED] T4131.080

[GRAPHIC] [TIFF OMITTED] T4131.081

[GRAPHIC] [TIFF OMITTED] T4131.082

[GRAPHIC] [TIFF OMITTED] T4131.083

[GRAPHIC] [TIFF OMITTED] T4131.084

[GRAPHIC] [TIFF OMITTED] T4131.085

[GRAPHIC] [TIFF OMITTED] T4131.086

[GRAPHIC] [TIFF OMITTED] T4131.087

[GRAPHIC] [TIFF OMITTED] T4131.088

[GRAPHIC] [TIFF OMITTED] T4131.089

[GRAPHIC] [TIFF OMITTED] T4131.090

[GRAPHIC] [TIFF OMITTED] T4131.091

[GRAPHIC] [TIFF OMITTED] T4131.092

[GRAPHIC] [TIFF OMITTED] T4131.093

[GRAPHIC] [TIFF OMITTED] T4131.094

[GRAPHIC] [TIFF OMITTED] T4131.095

[GRAPHIC] [TIFF OMITTED] T4131.096

[GRAPHIC] [TIFF OMITTED] T4131.097

[GRAPHIC] [TIFF OMITTED] T4131.098

[GRAPHIC] [TIFF OMITTED] T4131.099

[GRAPHIC] [TIFF OMITTED] T4131.100

[GRAPHIC] [TIFF OMITTED] T4131.101

[GRAPHIC] [TIFF OMITTED] T4131.102

[GRAPHIC] [TIFF OMITTED] T4131.103

[GRAPHIC] [TIFF OMITTED] T4131.104

[GRAPHIC] [TIFF OMITTED] T4131.105

[GRAPHIC] [TIFF OMITTED] T4131.106

[GRAPHIC] [TIFF OMITTED] T4131.107

[GRAPHIC] [TIFF OMITTED] T4131.108

[GRAPHIC] [TIFF OMITTED] T4131.109

[GRAPHIC] [TIFF OMITTED] T4131.110

                                  <all>
</pre></body></html>
